<html>
<title> - [H.A.S.C. No.113-126]THE ADMINISTRATION'S STRATEGY FOR THE ISLAMIC STATE IN IRAQ AND THE LEVANT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                                    

                            [H.A.S.C. No. 113-126]
                            

                        THE ADMINISTRATION'S STRATEGY

                       FOR THE ISLAMIC STATE IN IRAQ

                              AND THE LEVANT

                                __________

                       COMMITTEE ON ARMED SERVICES

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                               HEARING HELD

                            SEPTEMBER 18, 2014


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13





                              ______________________


                         U.S. GOVERNMENT PUBLISHING OFFICE
91-811                            WASHINGTON : 2015       
____________________________________________________________________________________

For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001


                             
                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California                TULSI GABBARD, Hawaii
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                           Aaron Falk, Clerk
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Thursday, September 18, 2014, The Administration's Strategy for 
  the Islamic State in Iraq and the Levant.......................     1

Appendix:

Thursday, September 18, 2014.....................................    49
                              ----------                              

                      THURSDAY, SEPTEMBER 18, 2014
  THE ADMINISTRATION'S STRATEGY FOR THE ISLAMIC STATE IN IRAQ AND THE 
                                 LEVANT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Hagel, Hon. Chuck, Secretary of Defense, U.S. Department of 
  Defense, accompanied by LTG William Mayville, USA, Director for 
  Operations, J-3, Joint Staff...................................     5

                                APPENDIX

Prepared Statements:

    Hagel, Hon. Chuck............................................    53

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Carson...................................................    66
    Dr. Fleming..................................................    64
    Mr. Kline....................................................    63
    Ms. Tsongas..................................................    63
  THE ADMINISTRATION'S STRATEGY FOR THE ISLAMIC STATE IN IRAQ AND THE 
                                 LEVANT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Thursday, September 18, 2014.
    The committee met, pursuant to call, at 11:19 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning, ladies and gentlemen. Before we begin, I will state up 
front that we intend to conduct this hearing in an orderly and 
efficient manner to ensure all members have an opportunity to 
ask questions and our witnesses have an opportunity to be 
heard. To that end, please be advised I will not tolerate 
disturbances of these proceedings, including verbal 
disruptions, photography, standing or holding signs. Thank you 
all for your cooperation. If there are disturbances, we will 
stop and have those who are disturbing leave the room.
    The committee meets to receive testimony on the 
administration's strategy for the Islamic State of Iraq and the 
Levant or ISIL. I would like to welcome Secretary Hagel, 
Lieutenant General Mayville, Director of Operations at the 
Joint Staff. General Dempsey is on a long-planned trip, meeting 
with his defense counterparts in Europe. Given the many crises 
in the world right now and the immense demands that they are 
placing on our military, General Dempsey is exactly where he 
should be.
    I received a call from Secretary Hagel I think it was about 
a week ago. He said I am in, I think Tbilisi or whatever, 
Georgia, and I said, is that near Atlanta? He said, No, a 
different Georgia. And he was there, and then he was going to 
Turkey, and then he was coming back here, and then he just--it 
is really great to have you here today, Mr. Secretary, and I 
understand how busy you are and how much you are traveling. 
Really appreciate your time, what you, General Dempsey, what 
all of the men and women in uniform are doing to keep us safe 
and from harm.
    Just yesterday the House, on a bipartisan basis and in 
large numbers, passed my amendment to the continuing resolution 
at the President's request which authorizes the Secretary of 
Defense to train and equip appropriately vetted elements of the 
Syrian opposition. We strengthened the proposal through 
congressional oversight, including detailed reporting and 
reprogramming requirements.
    Although not everyone supported the authority, there was 
widespread agreement that ISIL is a threat to our allies and to 
the United States, apparently that ISIL--agreement that ISIL 
must be defeated, agreement that the landscape is incredibly 
complex and that any option will carry risk and agreement that 
the Syria train-and-equip authority is but one part of what 
should be a broader regional strategy to defeat ISIL.
    I listened to the President's speech last week, and I 
talked with military experts, including those who know Iraq 
best. I traveled to the region earlier this month and got blunt 
answers from our allies and partners on what needs to be done. 
I do not believe the minimalist counterinsurgency strategy that 
the President has proposed is sufficient to achieve his 
objective to degrade and destroy ISIL.
    I gave a speech at the American Enterprise Institute last 
week. I called for swift action, not the current ``go slow'' 
approach. For every week we wait, ISIL grows. We need to 
conduct military operations in both Iraq and Syria to deny ISIL 
any safe haven.
    While the Kurds and Iraqi security forces are willing to 
fight and have some capability, they still need our trainers, 
our advisors, our command and control, our intelligence, our 
close air support, our special forces, the capabilities that 
only the United States can provide. None of us should minimize 
the risks. We cannot succeed from the safety of some 
headquarters building. Engaging those divergent groups and 
advising indigenous forces will put our military in harm's way.
    This is a dangerous business. The most irresponsible thing 
that the President can do is give the military a mission but 
not give it the tools it needs to do the job. By taking options 
off the table, I fear the President is setting the mission and 
our military up for failure rather than success. I know when 
Eisenhower was planning the invasion of Normandy, one of his 
subordinates questioned some of the planning, and he said, ``We 
are planning for success; failure is not an option.'' We are in 
that same situation today.
    Today's hearing is important for us to understand the 
administration's strategy for ISIL. The President has 
identified his objective to degrade and ultimately destroy. We 
need to hear from our defense and uniformed leaders on what you 
believe will be required of the military to achieve that 
objective. We need to understand the campaign, the role our 
partners will play, the risks, the capabilities our military 
will need, and the consequences of inaction.
    Mr. Secretary, General Mayville, again, thank you for being 
here during this consequential moment for our country. I look 
forward to your question and gaining answers to our questions.
    I would like to point out that we have a staff member who 
is leaving us, Debra Wada. Is Debra in here?
    Mr. Smith. We can thank her anyway.
    The Chairman. She already left? You already got her, huh? 
She is a professional staff member for the Subcommittee on 
Military Personnel for the House Armed Services Committee, a 
position that she has held since 1999. Ms. Wada served as the 
lead staff member for the subcommittee from 2007 to 2010 and 
briefly served as deputy staff director for the committee in 
2011. In 1999, Ms. Wada served as legislative affairs 
specialist for the National Parks Service. She served as 
legislative assistant for U.S. Senator Daniel K. Akaka, acting 
as the Senator's principal aide on national defense, veterans 
affairs, maritime issues, educational, social security, and 
welfare from 1987 to 1999. She received a B.A. [Bachelor of 
Arts] from Drake University.
    This sounds like an obituary. It is not. She is leaving to 
become the Assistant Secretary of the Army for Manpower and 
Reserve Affairs, Department of Defense, so we just got her 
ready to move down there for another very important job. She is 
still in the fight. So we want to point that out and thank her 
for what she is doing and wish her well down there for you, Mr. 
Secretary.
    Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I guess it is not so 
much an obituary as we can just say she has been sentenced to a 
stint over at the Pentagon. So we wish her well and we will 
visit her from time to time.
    Well, I thank you very much for being here, Mr. Secretary, 
General Mayville, and this is a very difficult moment for our 
country, because I think the best way to sum it up is our 
country simply wants this problem gone. You know, ever since 9/
11 [September, 11, 2001], ever since we learned about this 
terrorist threat that is out there, the two wars that we 
fought, all the decisions that have been made, and believe me 
it wouldn't be hard for anyone to go back over those decisions 
and criticize them step by step from just about any point on 
the political spectrum and say, Why did we do this? Why did we 
do this? If only we hadn't done that, everything would be fine. 
But the bottom line is, this problem is not going away. I 
cannot personally imagine any set of decisions that we could 
have made in the last 13 years that would have made it just go 
away now.
    I can certainly, you know, imagine ones that would have 
been better, and we can look back and learn about what was 
perhaps not a good decision, but the threat that we face, and 
ISIL is but one piece of it, is the ideological threat that we 
first came to understand with Osama bin Laden and Al Qaeda. It 
is an incredibly violent extremist ideology, attempting to 
hijack one of the world's great religions, and their ideology 
is very straightforward. They want to destroy us. The only 
thing that, you know, stops them from doing it is our efforts, 
the efforts of men like you and others and just the lack of 
capability. This threat exists, and we have to confront it, and 
every time a decision comes up, I really think a lot of the 
opposition is we just don't want to have to deal with it. But 
it is there, and we have to deal with it. The threat is real. 
It is not being made up, and ISIL is the latest manifestation 
of that threat. We have seen how just absolutely brutal and 
vulgar they are.
    They have committed, you know, small-scale genocides every 
place they have gone. Anyone who doesn't believe what they 
believe they kill and usually in the most brutal fashion 
imaginable. And they threaten us. Certainly they threaten the 
region first. There has been considerable debate about whether 
or not ISIL is a direct threat to us right now, and in a truly 
technical sense, they aren't, in the sense that they haven't 
been able to yet set up a system for plotting and planning 
attacks overseas, but I vividly remember, and this was a 
mistake I made along the way, when we were focused on Al Qaeda 
and we were focused in Pakistan, and for the longest time I 
said, Look, you know, Pakistan, Afghanistan, that is where it 
is at because any attack against western targets has always 
been plotted and planned out of that region.
    And that was true until Abdul Mutallab showed up on that 
airplane in Detroit, and that one was plotted and planned out 
of Yemen, which showed that the threat can spread, and we have 
responded to that. We were responding to it at the time by 
working with the Yemeni Government and trying to confront the 
threat there. And make no mistake about it, if ISIL were to 
settle down and get secure territory in Syria or Iraq, I have 
no doubt that they would try to train fighters and send them 
back to attack targets in the West. Now anyone who wants to, 
you know, say that that wouldn't happen, I wish you were right, 
but you are not. Their ideology is clearly a threat.
    So the question comes, how do we confront that threat? The 
one thing we can do even if we can't wish the problem away is 
we can learn from our past mistakes, and I think one of those 
mistakes and one of the areas that we need to change and move 
forward is the assumption that U.S. military might will fix 
this problem, and I understand that trap as well. You see a 
problem, you say by gum, we are not going to go at this at a 
halfway fashion, we are going to go get them because it is the 
American way; you win. You got a problem? You know what? We are 
going to go fix it. As the cliche goes, to a hammer every 
problem is a nail.
    But the problem here is this ideology gains strength from 
over-Western aggression, militarization in the region. The 
strongest argument that Al Qaeda and ISIL have to present to 
the people they want to join them is that they are protecting 
Islam against Western aggression. That is how they present 
themselves.
    Now, we understand that that is a--sorry, I was going to 
say something that isn't appropriate in a public hearing. That 
is not true, let's just put it that way, but that is their 
message. So when we show up with 150,000 troops in Iraq or 
100,000 troops in Afghanistan, it is effective up to a point, 
but it also reinforces that message. And that is why I think 
the vote we took in the House [of Representatives] yesterday 
and the train-and-equip mission is so critical.
    To win this fight, we have got to find partners, Muslim 
partners--in the case of ISIL, preferably Sunni partners--to 
work with to fight them. We have got to convince the people of 
the region that they need to fight this evil for their own 
sake. We were incredibly successful in the Anbar Awakening 
precisely because that is what we did. Yes, we had troops 
there, but we went in and we worked with the Sunni tribes in 
the Anbar region to convince them that Al Qaeda was evil, and 
then they took the fight.
    That made a huge difference, and that is what we have to do 
here. That is why I think the train-and-equip mission makes so 
much sense, and it was a bit frustrating yesterday to listen to 
people who are concerned about it, didn't want to do the train-
and-equip because they were concerned about, you know, U.S. 
military getting too engaged. They were in favor of the 
bombing, but they didn't want to do the train-and-equip, and I 
understand how those issues can become conflated, but train-
and-equip is how we get us out of the fight. It is how we 
develop a capable force, and we have seen this succeed against 
ISIL in Iraq. We have seen the Kurds, who were a broken force 
until we showed up, provided some arms and trained them, and 
they have now turned the tide and are actually starting to take 
back territory from ISIL because we helped them.
    Similarly, the Iraqi Government, a totally, totally broken 
force. Now, I have an argument, people say, well, gosh, here we 
go again with train-and-equip. We trained and equipped the 
Iraqi military, and how did that work out? The primary reason 
that didn't work out is because the Sunnis in the Iraqi 
military chose not to fight for [Iraqi Prime Minister] Maliki. 
I don't know whether they were a capable force or not, because 
they didn't even fight because the Maliki government became 
sectarian and corrupt and didn't support the Sunnis, so we 
insisted on a change in that government. Now we have a new 
Iraqi Government that is at least trying, initially, a power-
sharing arrangement that can bring some of the Sunnis in.
    So we have Sunni partners now who are going to lead that 
fight. So when we go after ISIL, the one big point, it has got 
to be locally driven, we have got to find local Sunnis who are 
willing to do that. So we could go rushing in and bombing and 
dropping a whole bunch of U.S. troops in there, and we would 
simply exacerbate the problem. We have got to be smart about 
how we build local support to confront ISIL, but make no 
mistake about it, they are a threat. One of those I wish we 
didn't have to think about it, I truly do. It involves money, 
it involves putting lives at risk, it involves difficult 
military decisions. I wish that there wasn't a threat from ISIL 
and this ideology, but we have learned in the last 20 years 
that there clearly is. We have to come up with a plan for 
confronting it, and I look forward to hearing from the 
Secretary and the General today about how we are going to keep 
working on that plan, implement it, and move forward. Thank 
you, Mr. Chairman.
    The Chairman. Thank you. Mr. Secretary.

   STATEMENT OF HON. CHUCK HAGEL, SECRETARY OF DEFENSE, U.S. 
  DEPARTMENT OF DEFENSE, ACCOMPANIED BY LTG WILLIAM MAYVILLE, 
         USA, DIRECTOR FOR OPERATIONS, J-3, JOINT STAFF

    Secretary Hagel. Chairman McKeon, Ranking Member Smith, 
members of the committee, I very much appreciate the 
opportunity this morning to discuss the President's strategy to 
degrade and ultimately destroy ISIL.
    Mr. Chairman, on a personal note, I want to thank you for 
your leadership on yesterday's vote. I believe, the President 
believes, that that vote was a very important and defining 
vote, and we are not unmindful of the work that you and others 
on this committee invested in that vote and getting the turnout 
that you did. So thank you.
    Yesterday I joined President Obama at MacDill Air Force 
Base in Tampa where he received a briefing from the commander 
of U.S. Central Command [CENTCOM], General Austin, on 
operational plans to implement our ISIL strategy and met with 
representatives while I was there, as did the President, from 
more than 40 partner nations.
    I am joined here today, as you have noted, Mr. Chairman, by 
the Joint Staff's Director for Operations, Lieutenant General 
Bill Mayville. He is our J-3 [Joint Staff, Operations], and 
General Mayville helps oversee, among many of his 
responsibilities, our military operations in Iraq, the Middle 
East, and in CENTCOM, and works closely with General Austin and 
CENTCOM to develop all of our military plans. So I appreciate 
very much General Mayville being here.
    And as you noted, Mr. Chairman, Chairman Dempsey is with 
our partners internationally over the next few days, and as you 
noted, he should be. Much of that discussion will be about the 
Middle East, specifically Iraq and Syria. He consults with our 
allies in this fight against ISIL and tomorrow will attend a 
special NATO [North Atlantic Treaty Organization] Chiefs of 
Defense conference in Lithuania where they will be focused on 
the ISIL challenge.
    The Defense Department civilian and military leaders, Mr. 
Chairman, are in complete agreement with every component of the 
President's strategy, and we strongly believe it offers the 
best opportunity to degrade and destroy ISIL. The President, 
Chairman Dempsey, General Austin, and I are in full alignment 
on all of our objectives and our tactics and our strategy, that 
military strategy necessary to achieve the President's 
objective. However, as President Obama has repeatedly made 
clear, American military power alone cannot eradicate the 
threats posed by ISIL to the United States, our allies, and our 
friends and partners in the region. Iraq's continued political 
progress toward a more inclusive and representative government 
will be critical to achieving our objective.
    We believe that Iraq's new Prime Minister is committed to 
bringing all Iraqis together against ISIL. To support him and 
the Iraqi people in their fight against ISIL, against 
terrorists, the special coalition that we are assembling will 
need to use all of its instruments of power--military, law 
enforcement, economic, diplomatic, and intelligence--in 
coordination with the countries in the region.
    To succeed, this strategy will also require a strong 
partnership between the executive branch and Congress. The 
President has made it a priority to consult with congressional 
leadership on the ISIL challenge, as have Vice President Biden, 
Secretary Kerry, and many senior members of the administration.
    I appreciate the opportunities I have had to discuss our 
strategy with members of this committee, including you, Mr. 
Chairman, and other members of the Senate and the House over 
the last couple of weeks, and we will continue with these 
consultations.
    ISIL poses a real threat to all countries in the Middle 
East, our European allies, and to America, as you have noted, 
Mr. Chairman, as has Congressman Smith.
    In the last few months the world has seen ISIL's barbarity 
up close as its fighters advanced across western and northern 
Iraq and slaughtered thousands of innocent civilians including 
Sunni and Shi'a Muslims and Kurdish Iraqis and all religious 
minorities who stood in their way. ISIL's murder of two U.S. 
journalists outraged the American people and exposed the 
depravity of ISIL's ideology and tactics, exposed those tactics 
and that brutal ideology to the world.
    Over the weekend we saw ISIL's murder of a British citizen. 
ISIL now controls a vast swath of eastern Syria and western and 
northern Iraq, including towns and cities in these areas. ISIL 
has gained strength by exploiting the civil war in Syria and 
sectarian strife in Iraq. As it has seized territory across 
both countries and acquired significant resources and advanced 
weapons, ISIL has employed a violent combination of terrorist, 
insurgent, and conventional military tactics.
    ISIL has also been very adept at deploying technology and 
social media, employing this to increase its global profile and 
attract tens of thousands of fighters. Its goal is to become 
the new vanguard of the global extremist movement and establish 
an extremist Islamic caliphate across the Middle East. It 
considers itself the rightful inheritor of Osama bin Laden's 
legacy.
    While ISIL clearly poses an immediate threat to American 
citizens in Iraq and our interests in the Middle East, we also 
know that thousands of foreign fighters, including Europeans 
and more than 100 Americans, have traveled to Syria with 
passports that give them relative freedom of movement. These 
fighters can exploit ISIL's safe haven to plan, coordinate, and 
carry out attacks in United States and Europe. Although the 
Intelligence Community has not yet detected specific plotting 
against the U.S. homeland, ISIL has global aspirations, clearly 
has global aspirations, and they have so stated.
    And as President Obama has made clear, ISIL's leaders have 
threatened America and our allies. If left unchecked, ISIL will 
directly threaten our homeland and our allies. In his address 
to the Nation last week, President Obama announced that the 
United States will lead a broad multinational coalition to roll 
back ISIL's threat and defeat ISIL. More than 40 nations have 
already expressed their willingness to participate in this 
effort and more than 30 nations have indicated their readiness 
to offer military support. President Obama and Vice President 
Biden, Secretary Kerry, and I and others are working to unite 
and expand this coalition.
    At the NATO summit in Wales, Secretary Kerry and I convened 
a meeting of key partners in this coalition. I then went to 
Georgia and Turkey, as you noted, Mr. Chairman. The Georgians 
made clear they will help. Turkey, by virtue of its geography 
and its common interest in destroying ISIL, and I might note an 
indispensable member of NATO from the beginning of NATO. We 
know that Turkey is now in the grips of ISIL holding nearly 50 
of its diplomats.
    [Disruption in hearing room.]
    The Chairman. The chair notes that there is a disturbance 
of the committee's proceedings. The committee will be in order. 
The committee will stand in recess until the Capitol Police can 
restore order.
    The gentleman will proceed.
    Secretary Hagel. Thank you. As I was noting, ISIL is 
currently holding nearly 50 Turkish diplomats hostage, and this 
obviously is a high and first priority of the Turkish 
Government to get those hostages back, and in my conversations 
with President Erdogan and other leaders in Turkey, we talked 
specifically about that, but also the important role Turkey 
will play in our overall efforts in this coalition.
    Secretary Kerry convened a meeting in Jeddah [Saudi Arabia] 
last week with foreign ministers from the six Gulf Cooperation 
Council states, also Egypt, Iraq, Jordan, and Lebanon, and all 
22 nations of the Arab League adopted a resolution at their 
summit in Cairo calling for comprehensive measures to combat 
ISIL.
    Earlier this week in Paris, President Hollande of France, 
who traveled to Iraq last weekend, hosted a conference attended 
by the U.N. [United Nations] Security Council permanent 
members, European and Arab leaders, and representatives of the 
EU [European Union], Arab League, and United Nations. They all 
pledged--they all pledged to help Iraq in the fight against 
ISIL, including through military assistance. Other key allies 
such as Australia, Canada, France, and the United Kingdom are 
already contributing military support, and other partners have 
begun to make specific offers.
    At next week's U.N. General Assembly, we expect that 
additional nations will be making commitments across the 
spectrum of capabilities, building on the strong Chapter 7 U.N. 
Security Council Resolution adopted last month calling on all 
member states to take measures to counter ISIL and to suppress 
the flow of foreign fighters to ISIL. Also next week, President 
Obama will chair a meeting with the U.N. Security Council to 
further mobilize the international community.
    As you all know, former International Security Assistance 
Force [ISAF] commander and acting CENTCOM commander, General 
John Allen, has been designated to serve as special 
Presidential envoy for the global coalition to counter ISIL. 
General Allen will work in a civilian diplomatic capacity to 
coordinate, build, and sustain the coalition, drawing on his 
extensive experience in the Middle East. He will work closely 
with General Austin of CENTCOM to ensure that coalition efforts 
are aligned across all elements of our strategy.
    In his address to the Nation, the President outlined the 
four elements of this strategy to degrade and ultimately 
destroy ISIL. Let me now describe how we are implementing this 
whole-of-government approach. First, in close coordination with 
the new Iraqi Government, we are broadening our air campaign 
against ISIL targets to protect Americans threatened by ISIL 
and advances that ISIL is making and also to prevent 
humanitarian catastrophe. The U.S. military has already 
conducted more than 170 successful air strikes. These strikes 
have disrupted ISIL tactically and helped buy time for the 
Iraqi Government to form an inclusive and broad-based governing 
coalition led by the new prime minister. That was one of 
President Obama's essential preconditions for taking further 
action against ISIL because the Iraqi people, the Iraqi people 
must be united in their opposition to ISIL in order to defeat 
them. This is ultimately their fight.
    The new broader air campaign against ISIL targets will 
enable Iraqi security forces, including Kurdish forces, to 
continue to stay on the offensive and recapture territory from 
ISIL and hold it. The President of the United States has the 
constitutional and the statutory authority to use military 
force against ISIL in Syria as well as Iraq. Because ISIL 
operates freely across the Iraqi-Syrian border and maintains a 
safe haven in Syria, our actions will not be restrained by a 
border that exists in name only.
    CENTCOM's plan includes targeted actions against ISIL safe 
havens in Syria, including its command and control, logistics 
capabilities, and infrastructure. General Dempsey and I have 
both approved and spent considerable time reviewing and 
adapting the CENTCOM plan which General Austin, as I noted, 
briefed to the President in Tampa yesterday.
    The second element of the strategy is to increase our 
support for forces fighting ISIL on the ground, not American 
forces, but forces, Iraqi forces fighting on the ground. To 
support Iraqi and Kurdish forces, the President announced last 
week that we would deploy an additional 475 American troops to 
Iraq. Part of that number includes approximately 150 advisors 
and support personnel to supplement forces already in Iraq 
conducting assessments to the Iraqi security forces. This 
assessment mission is now transitioning to an advise-and-assist 
mission with more than 15 teams embedding with Iraqi security 
forces at the headquarters level to provide strategic and 
operational advice and assistance.
    By the time all these forces arrive, there will be 
approximately 1,600 U.S. personnel in Iraq responding to the 
ISIL threat. But as the President reaffirmed yesterday in 
Tampa, American forces will not have a combat mission on the 
ground. Instead, these advisors will continue to support Iraqi 
and Kurdish forces, including the government's plans to stand 
up Iraqi National Guard units. These units are to help Sunni 
communities defeat ISIL in their area. The best counterweights 
to ISIL are local forces and local citizens, the people.
    As you know, in June, the President asked Congress for the 
necessary authority for DOD [Department of Defense] to train 
and equip moderate Syrian opposition forces and $500 million to 
fund this program. And again, we appreciate yesterday's House 
vote to amend the continuing resolution with language 
authorizing this train-and-equip program. Saudi Arabia will 
host the training program for this mission, and the Saudis have 
offered funding and additional assistance with recruiting and 
vetting. The $500 million request the President made in June 
for this train-and-equip program reflects CENTCOM's estimate of 
the cost to train, equip, and resupply more than 5,000 
opposition forces over one year.
    This is the beginning of a multiyear, scalable effort 
designed to eventually produce an even larger opposition force. 
The package of assistance that we initially provide would 
consist of small arms, vehicles, and basic equipment like 
communications, as well as tactical and more advanced training. 
As these forces prove their effectiveness on the battlefield, 
we would be prepared to provide increasingly sophisticated 
types of assistance to the most trusted commanders and capable 
forces.
    The goal is not to achieve numerical parity with ISIL, but 
to ensure that moderate Syrian forces are superior fighters 
trained by units. Our goal is to undercut ISIL's recruitment 
and to enable the Syrian opposition to add to the pressure ISIL 
is already facing from the Iraqi security forces and the 
security forces of Kurdistan.
    We want to force ISIL into a three-front battle against 
more capable local forces. A rigorous vetting process will be 
critical to the success of this program. DOD will work closely 
with the State Department, the Intelligence Community, and all 
of our international partners and in the region to screen and 
vet the forces we train and equip. We will monitor them closely 
to ensure that weapons do not fall into the hands of radical 
elements of the opposition, ISIL, the Syrian regime, or other 
extremist groups.
    There will always be risks, Mr. Chairman. There are risks 
in everything. There are risks in action and there are risks in 
inaction, but we believe the risk is justified, given the real 
threat ISIL poses to this country and to the region and to our 
allies and the necessity of having capable partners on the 
ground in Syria.
    As we pursue this program, the United States will continue 
to press for a political resolution to the Syrian conflict. 
Assad has lost all legitimacy to govern. He has created the 
conditions that allowed ISIL and other terrorist groups to gain 
ground and terrorize and slaughter the Syrian population. The 
United States will not coordinate or cooperate with the Assad 
regime.
    The third element of the President's strategy is an all-
inclusive approach to preventing attacks from ISIL against the 
homeland of the United States and our allies. In concert with 
our international partners, the United States will draw on 
intelligence, law enforcement, diplomatic, and economic tools 
to cut off ISIL's funding, improve our intelligence, strengthen 
homeland defense, and stem the flow of foreign fighters.
    The United States and our allies have been stepping up 
efforts to identify and counter threats emanating from Syria 
against our homelands. This includes increased intelligence 
sharing, working with DOD's partners at the National 
Counterterrorism Center, the Department of Homeland Security, 
the FBI [Federal Bureau of Investigation], and across the 
Intelligence Community.
    Our terrorist screening and analytical databases now have 
special threat cases linking together known actors and 
potential foreign fighters, making it easier and faster to 
update them regularly with new information. Department of 
Homeland Security Secretary Jeh Johnson has directed enhanced 
screening at 25 overseas airports with direct flights to the 
United States, a step that the United Kingdom and other 
countries have already taken.
    The Departments of Justice and Homeland Security have 
launched an initiative to partner with local communities to 
counter extremist recruiting, and the Department of Treasury's 
Office of Terrorism and Financial Intelligence is working 
closely with coalition partners to disrupt ISIL's financing and 
expose their financing activities.
    The final element of the President's strategy is to 
continue providing humanitarian assistance to innocent 
civilians displaced or threatened by ISIL. Alongside the 
Government of Iraq, the United Kingdom, Canada, Australia, 
France, U.S. troops have already delivered life-saving [aid to] 
thousands of threatened Iraqi civilians on Mount Sinjar and the 
Iraqi town of Amerli.
    Our total humanitarian assistance to displaced Iraqis is 
now more than $186 million for fiscal year 2014. The United 
States is also the single largest donor of humanitarian 
assistance for the millions of Syrians affected by the civil 
war. Since the start of the Syrian conflict, the United States 
has committed almost $3 billion in humanitarian assistance to 
those affected by this war.
    All four elements of this strategy require a significant 
commitment of resources on the part of the United States and 
our coalition partners. This effort will not be easy. This 
effort will not be brief. This effort will not be simple. We 
are at war with ISIL, just as we are at war with Al Qaeda, but 
destroying ISIL will require more than military efforts alone. 
It will require political progress in the region and effective 
partners on the ground in Iraq and in Syria, and as President 
Obama said yesterday in Tampa, we cannot do for the Iraqis what 
they must do for themselves. We can't do for them, but this is 
an effort that calls on America's unique, our unique 
capabilities and abilities and responsibilities to lead. As the 
Congress and the administration work together, we know this 
effort will take time. The President has outlined a clear, a 
comprehensive, and a workable strategy to achieve our goals and 
protect our interests.
    Mr. Chairman, members of this committee, thank you. Thank 
you for your continued support, your partnership, and what you 
do for our men and women in uniform who protect this country. 
Thank you.
    [The prepared statement of Secretary Hagel can be found in 
the Appendix on page 53.]
    The Chairman. Thank you. Will the General have an opening 
statement?
    General Mayville. No, sir.
    The Chairman. Thank you.
    Thank you, Mr. Secretary. You outlined a lot of things. I 
think the President's stated objective to degrade and 
ultimately destroy ISIL is a very worthy goal, and I think you 
have outlined a lot of things that he plans to do in that area, 
yet the only thing he has asked Congress for--I presume he will 
be coming for other things, but so far all he has asked is for 
the train-and-equip. We acted on that yesterday. The Senate, I 
understand, will act on that today. So I think that is a good 
message that we are trying to work together. We are all 
Americans and we have one common enemy, and that should unite 
us and unite us strongly.
    I was glad to hear you say that you are all united, your 
team, all the military leaders. It was reported that General 
Austin's military advice was to send a modest contingent of 
American troops to advise and assist in Iraq, more than the 
President I think has decided to do. Is that an accurate 
report?
    Secretary Hagel. What I would tell you, Mr. Chairman, is, 
as you know, and I think the President has been very clear, and 
certainly General Dempsey made this clear 2 days ago in our 
hearing before the Senate Armed Services Committee. First, the 
President expects from his military leaders an honest, direct 
evaluation of what they think and what is required to implement 
strategies that will protect this country. There were a number 
of recommendations on a number of things based on the questions 
the President asked of our military leaders. I will tell you 
this: General Austin, as I have said, is in full agreement with 
the President's decisions on the resources the President has 
decided to use to implement that strategy, and General Austin 
made that very clear again yesterday with the President when 
the President was in Tampa to get--spent the day there with 
General Austin and his commanders to get a thorough briefing of 
the plan. Thank you.
    The Chairman. There is one thing that I am going to give 
you, give the President some advice through you. I think it is 
very important that he does follow the advice and counsel that 
he receives, the professional advice of the military. They are 
the ones best suited to do that. I realize he is Commander in 
Chief, he has the final say and the final obligation and 
responsibility. I would also request that he not take options 
off the table. It seems to me every speech he gives, the first 
thing he says is no boots on the ground, and then makes an 
announcement of sending more boots.
    I think that that is confusing to the American people, and 
I think it builds distrust rather than understanding of what he 
is really saying. I think no boots on the ground, I think 
people are thinking divisions and full-bore thing that we 
originally did in Iraq, shock and awe. I understand that is not 
the strategy, but I think the American people get confused, and 
if we explain to them, look, boots on the ground means no 
combat forces, or boots on the ground means we are not going to 
do shock and awe or whatever, but we are going to have our 
people there, and there are certain things that they have to 
do, and without them, we can't be successful in this battle, 
and I think they can accept that, and they can--they are smart 
enough to figure it out, and if they think they are not hearing 
the truth, the whole truth, then I think they get, they kind of 
get their backs up.
    I think it is also very important that the President give 
lots of updates. I think, you know, over the last several years 
the war in Afghanistan, there have been a lot of 
accomplishments that we have achieved over there, and I don't 
think the American people know, and I think only the President 
can tell them that, and I think they would like to know, as we 
move forward, how we are doing in Iraq, how we are doing in 
Syria, and I would strongly suggest that he go before the 
people--he is the only one that can do it--and keep them 
informed as to what is going on, because I think they are going 
to have to be in this, and this is not going to be--this is 
going to be for the entire duration of his Presidency and 
probably the next President's. So if we don't let people know 
what is going on and make them a part of it, we are not going 
to have the political support we need to go forward.
    I am concerned about the strategy of counterterrorism. I 
don't think it has been overly effective in Yemen or other 
places that he pointed out that had actually been successful. I 
think we are going to have to be more aggressive than that.
    I see what we are doing in Iraq is building up, pushing 
ISIL, I think the plan is to push them out of all their 
occupied territory, regain that, take it back, and free up 
Iraq, and then as you are pointing out, we don't want to have a 
safe haven where they can just slip over into Syria. So my 
understanding of what the President is saying, he is not going 
to give them any safe haven. So while we don't know yet what 
more he will do, he has said he will make--take air strikes 
there if possible.
    So I just, more than questions, I think I just want to 
relay a few of those things, my thoughts and feelings. I am not 
going to be in a position to do that much longer, so I want to 
take advantage of it while I have the opportunity. Thank you. 
Thank you very much.
    Secretary Hagel. Mr. Chairman, may I respond to a couple of 
the points you made because each is particularly important, and 
not only are your points right, I think, and I think the 
President agrees with what you have said, but most of the 
points are centerpieces and pillars of his strategy.
    On the particular question on boots on the ground, what he 
has said is that there is no ground combat role for Americans. 
Yes, a combat role on the ground is going to be required. 
Obviously, it is going on in Iraq today. It will be required in 
Syria. And what he has said is the Iraqi security forces, the 
Peshmerga, the Kurdish forces that are the ground forces in 
Iraq, and we will continue to support them through air strikes 
and other capabilities we have.
    Syria, as you know, the whole point of train and equip is 
to help develop that ground force, a capable unit-by-unit 
ground force in Syria, but he is fully aware of and agrees that 
this isn't going to be done without ground forces, but what he 
has made clear to the American people, and I know there are 
differences of opinion, as he does, that he is not going to 
order American combat ground forces into those areas, but I 
thought that was a point that you made that you gave me an 
opportunity of maybe hopefully clear that up.
    Your point about informing and updating the American 
people, you are right. I think any of us in this business 
understand how critical that is the American people understand 
what is going on. They are represented obviously in this body 
and the body across the way, as it should be, but to have the 
American people understand it and be part of it, and especially 
the Congress, as I have noted in my testimony, the President 
thinks it is a critical component of going forward. So thank 
you for allowing me to maybe clear that up.
    The Chairman. Thank you. Mr. Smith.
    Mr. Smith. Yeah, on the boots on the ground point, I think 
the problem is that the President and many people have the 
instinct that the country, as we witness from the protesters, 
you know, we just don't want to go back into another war, and 
everyone is very concerned about that, and the President is 
seeking to reassure those folks, but I agree with the Chairman, 
I think it would be better to sort of explain, you know, what, 
it is not a boots-on-the-ground issue, and also it is not even 
a matter of, you know, we are war weary, so we are not going to 
send in troops just because we know it will upset people.
    It is because we don't think it will work, and I think that 
is the thing to make clear is that there is too much of an 
excessive reliance on U.S. military force, then oddly, we push 
more people into the arms of ISIS [Islamic State in Iraq and 
Syria], and I think, you know, too often the President does 
sound more like he is in the former camp of we don't want to do 
this because we know it is hard and we know you don't like it. 
It would be better if he would make it clear that we are not 
going to do this because it is not going to work, it is not the 
most effective way to confront those forces.
    So both Buck and I will task you with going to the 
President and working on his messaging, but it is important and 
it is important how it is presented to the American people and 
how we build support for this program.
    On the issue of finding, you know, Sunni partners because I 
still contend that is the key, if we find enough Sunnis in Iraq 
and Syria who are willing to fight against ISIS, that is when 
we will start to be successful. What are our efforts in terms 
of outreach to some of those tribes, focusing on Iraq for the 
moment, from the Anbar Awakening? They are still there. I 
suspect many of them are fighting with ISIS. How are we doing 
working with the Iraqi Government and the locals there to try 
to turn some of those tribesmen the same way we did during the 
Awakening?
    Secretary Hagel. Congressman, as you have just pointed out, 
and as I noted in my testimony, the reaching out to the Sunni 
tribes through an inclusive representative functioning 
government in Iraq is a start. General Allen's relationships 
will help, General Austin's relationships, relationships of 
other coalition partners in the area, especially Arab Sunni 
countries that are part of the coalition will be critically 
important to this. This cannot be seen as a U.S.-Western effort 
against any component of the Muslim world or Islam, Sunni 
versus Shi'a.
    So it is all of those working together as we go forward in 
this coalition to get once again the Sunni tribe leadership and 
buy-in, and as I noted in my testimony that what we are doing, 
one of the most fundamental parts of that is the evolution and 
development of government in Iraq that the Sunnis trust and 
have some confidence in that begins to unite that country, and 
as you defined it in your opening statements, much of the 
Maliki government did everything but that the last 5 years and 
brought a lot of this on. So that can be done. It is a critical 
component of this. We know that, and we are working hard to do 
it.
    Mr. Smith. And just a little pie in the sky for the moment. 
The whole area there would benefit from the Sunnis and the 
Shi'a finding some way to coexist. Massive understatement, I 
understand. But our partners Saudi Arabia, the UAE [United Arab 
Emirates], Qatar, is there any way to have conversations with 
them and say, look, we know you guys hate Iran and understand 
that. A big part about what motivated Saudi Arabians and these 
other countries in the early stages of Syria's civil war to 
just say, hey, if you are against Assad, we are going to throw 
money at you, we are going to throw guns at you, which is what 
really empowered some of these violent extremists was the 
Saudis, they didn't care, they were like, we--we hate Iran, 
Assad is a partner, so whatever, whatever we have to do to get 
Assad is in our interests.
    Do you think it is sort of dawning on them at this point 
that they are caught between two things here and if they don't 
find some way to peacefully--I mean, Iran's not going anywhere, 
okay? Now, we do wish that they would stop messing in external 
affairs as well as they do, but has there been any effort at 
saying how do we sort of take the edge off that because that is 
what, you know, groups like ISIS feed on.
    Secretary Hagel. You have just identified a big part of the 
complications. Yes, we are much aware of that. We are working 
with that. As I noted, Secretary Kerry was in Jeddah last week 
and convened a meeting of the foreign ministers from the six 
GCC [Gulf Cooperation Council] countries as well as four other 
Middle Eastern countries.
    As I noted in my testimony and my comments, this is a 
complicated dynamic on a good day, and there are many factions 
and factors that are flowing through this, and we have to be 
mindful of that as we proceed and try to calibrate achieving an 
objective here that the President has laid out that is clearly 
in our interests, and clearly in the interests of those Sunni 
countries, Arab countries, all the countries of the Middle 
East, and to find that common ground and common interest and 
seize upon that where we can find that cooperation, and we are 
doing that, and that is coming together, as these countries are 
stepping forward on committing to what they are going to be 
doing, and they are going to be doing more of it as we 
coordinate that. So what you have identified, Congressman, is a 
core piece of this effort.
    Mr. Smith. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Thornberry.
    Mr. Thornberry. Mr. Chairman, I am going to yield my time 
to the gentlelady from Indiana, Ms. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman. I thank the 
gentleman for yielding his time. Thank you, Secretary Hagel and 
General for being here, for your service, we appreciate it. And 
I am thinking that I remember on September 11th, a reporter was 
asking a question to White House press secretary and said how 
are you defining victory, and the White House press secretary 
said, I don't have my Webster's dictionary with me up here. And 
what is on the minds of the American people, I know, it is on 
my mind as well, that we have talked about degrading and 
destroying, and now those seem to be the two coins that we are 
understanding, we are degrading, which my understanding is we 
are slowing down this process, we are disrupting ISIL's 
maneuvers and operations, and then we are ultimately 
destroying, and I think it is a fair question to ask on behalf 
of all Americans that if this plan is successful, and there is 
so many doubts about this plan being successful, the big 
``if.'' What is the end game? What does it look like with a 
destroyed ISIL?
    Secretary Hagel. First, destroying ISIL, which is clearly, 
as you have noted and we have said clearly, is not an easy or 
simple or quick task, and we have been very honest about that. 
We will continue to be honest about it. But your question, what 
is the end state, it is a region and it is a reality and a 
threat that is eliminated from threats against the United 
States and against our allies.
    Mrs. Walorski. So----
    Secretary Hagel. That threat of beheadings, of terrorist, 
sophisticated terrorist attacks of slaughtering people, of a 
barbaric approach to everything they do, an ideology that has 
nothing to do with religion, any religion. The capacity that 
ISIL now possesses through their funding mechanisms, through 
their sophistication, through their organization, through their 
strategy is a threat to everybody, so what does an end game 
look like is a world without that threat. Now, is the world 
always going to be dangerous? I suspect in our lifetimes it 
will be, but that is something that we are aware of, but we are 
dealing with the threat right now.
    Mrs. Walorski. Right, I understand that, and I understand 
the enormity of it and the complexity of it, and I think the 
American people do as well, but I think it is a fair question 
to say, is, you know, is success that we stop seeing 
beheadings? You mentioned that. Of course that would be a 
measure of success. Is success that Iraq gets its territory 
back? That would be successful; I would imagine you would 
agree. That Syria----
    Secretary Hagel. Stability in the Middle East.
    Mrs. Walorski. Stability in the Middle East.
    Secretary Hagel. Partners.
    Mrs. Walorski. What about the caliphate in general, is 
success also going to be measured in the fact that we no longer 
have a group of people that literally are going to insist on 
world dominance in a caliphate or are we ever going to be able 
to deal with that, because it seems to me that if we don't 
continue to have some kind of a bold and aggressive approach, 
that there is some kind of democracy and freedom in that region 
with the very limited partners that we have that there will 
never be an end game, and my fear, and I think the fear of the 
American people is we have all heard this before. We have all 
lived through this already.
    Secretary Hagel. So what's the alternative, do nothing?
    Mrs. Walorski. What does it look like? If this plan doesn't 
work, what is the alternative? What does it look like in the 
Middle East then?
    Secretary Hagel. Well, we always have Plan Bs and Cs, that 
is what the military does as well as anybody in the world, but 
we believe this plan will work, and we believe the way it is 
laid out with our partners, the structuring of it, the reality 
of it, the timeframes of it, the partnerships, commitments to 
this will work. But back to your more fundamental question, and 
I understand your question. As I said, I don't know if we will 
ever see a world without threats, particularly your question 
about won't there always be threats out there with some 
extremist group wanting to build an extremist caliphate in the 
Middle East? I suppose. But I have got to worry about what I 
have right in front of me right now, and this is an immediate 
threat. Yes, we have to think long term, we do. We are trying 
to think through that as to what will work, what will be 
effective, how do we bring the civilized world together to stop 
this----
    Mrs. Walorski. Right.
    Secretary Hagel [continuing]. Because the other way to ask 
that question, Congresswoman, is what if we don't.
    Mrs. Walorski. Correct. And just quickly, what else can we 
do as a Congress to make sure we get those passports away from 
the foreign fighters that are coming from America?
    Secretary Hagel. Thank you, and I am glad you mentioned 
that because it is something I noted in my testimony. It is a 
critical piece to this. It is a dangerous and real threat with 
those kind of individuals floating around out there, possessing 
those passports with easy access, as I said, we are 
coordinating with using every interagency force we have, 
coordinating with our partners all over the world and 
databases, everything that we can do right now to address this, 
to identify those threats out there, to stop those threats.
    Some countries are further ahead, like the U.K. [United 
Kingdom], probably further ahead than almost anyone, but I just 
was in a National Security Council meeting late yesterday 
afternoon when we came back from Tampa, the President chaired, 
and the Attorney General was there, the Secretary of Homeland 
Security there. We were all there. This was a big part of the 
topic. In fact, it was the central part of the topic, foreign 
fighters, and the President wanted updates, and he gets them 
every week on what are we doing, how much are we doing, how 
much can we still do and what do we have to do, so it is a big 
part of what we are doing here.
    Mrs. Walorski. I appreciate it. Thank you, Mr. Chairman. 
Yield back my time.
    The Chairman. Thank you. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. Thank you, gentlemen. 
So yesterday we took a vote. The vote was on whether to arm the 
Syrian rebels. We, I think, all acknowledge that ISIS is a 
problem and something that we need to take care of. I find it 
pretty disturbing that we are having this hearing after we have 
taken a vote because I don't think that the plan that I have 
seen was detailed enough to make me believe that your plan will 
work.
    I am going to ask you some questions, most of which will 
probably have to go on the record or you will have to come in 
and brief me, and I hope the other members of this committee 
believe that it is important enough for us to understand 
exactly what this plan is because I am not so sure of it and I 
haven't heard the details as I would like to hear them.
    I want to begin by saying that I have a Syrian-American 
community, and they are all over the place on this. I go and I 
talk to them, et cetera. Syrian moderates, most of my people 
say that those Syrian moderates have gone over to ISIS. And 
most of them have told me that they don't think that the Syrian 
moderates we arm, whoever those may be, are actually going to 
fight against the ISIS moderates who used to hang out with the 
Syrian moderates.
    Equip and train, because we did such a great job in Iraq, 
$35 billion later--and Mr. Chairman, I was the one every single 
time Rumsfeld and others were in front of us asking about equip 
and train. But some have said, as my good friend and colleague 
here, that it wasn't a problem of equip and train; it was a 
lack of leadership; it was bad people commanding; it was the 
commander in chief Maliki who was wrong and didn't help us on 
this or didn't make this thing work.
    Can you tell me who the commander in chief of the Syrian 
moderates, who are all over the place--don't even talk to each 
other sometimes--how we are going to see that leadership go 
through? These are just for the record, okay. What type of 
arms? Exactly what type of arms are we going to hand over to 
these people? Because the last time I checked, we handed over 
arms to Maliki and they ended up in ISIS and the very same arms 
are going after us.
    Coalition. Coalition of 40, the President says. Who? What 
will they really do? How many troops? I have been through this, 
you guys. I saw the coalition in Iraq, and we used to sort of 
like chuckle at each other in seeing some of these countries 
with one person. I don't know, training dogs, maybe a bomb 
expert, but coalition of 40? Who? What? How much? Which are the 
combat troops? How are they going to get there? I would like to 
know those things.
    And I have a problem, when you go out in front of the 
American people and start talking about why certain countries 
might not want to suggest that they are with us--this is why I 
want all this information somehow. I don't need to put it out 
in the public. But you know what I am told by my Turkish 
Americans? That Turkish Army arms are in ISIS hands, and the 
Government of Turkey has winked to let those go into those 
hands. I have a problem. It is a very complicated issue you are 
getting America into and an even more complicated situation.
    More importantly--and, Secretary, this isn't and shouldn't 
be under your sort of purview, but it is under the 
administration's--so let's say--and I hope your plan works, 
because, you know, ISIS, ISIL, they are not good. I hope I am 
wrong. I hoped the same thing when I voted against the Iraq 
war, that I was wrong, but I don't believe that I was wrong on 
that. So I want to see the plan; in particular, I want to ask 
the administration for this, the neighborhood players, let's 
say we eliminate ISIS and ISIL, what fills that gap? What has 
to fill that gap for this to work are people putting up homes, 
people putting up schools, people putting up jobs, people 
getting these people the type of lives that they see on 
television and all these TV shows we export but aren't living. 
And that is one of the reasons this has been created.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Gentlelady yields back.
    Mr. Jones.
    Mr. Jones. Mr. Secretary, in November 2005, as a Senator, 
you penned an article in Foreign Affairs magazine asserting 
that Vietnam was a national tragedy, partly because Members of 
Congress failed their country, remained silent, and lacked the 
courage to challenge the administration in power until it was 
too late. You wrote, and I quote, ``To question your government 
is not unpatriotic; to not question your government is 
unpatriotic. America owes its men and women in uniform a policy 
worthy to their sacrifice.'' These are your words, Mr. 
Secretary.
    In the past, you informed America that many in the Middle 
East see us as an obstacle of peace and an aggressor, an 
occupier. You wrote that our policies are a source of 
significant friction in the region, and that we are, at the 
same time, both a stabilizing and destabilizing force in the 
Middle East. Also, you described a fear of the uncontrollable, 
the unpredictable consequences of military action. You stated, 
``How many of us really know and understand Iraq, the country, 
the history, the people and the role of the Arab world?'' You 
asserted that the American people must be told of that long-
term commitment, risk, and cost of the undertaking.
    Mr. Secretary, you and I have a friendship that was based 
on my coming out against the Iraq war. I did not know you prior 
to that, and I was very grateful that you extended a hand to me 
because I was getting beat up pretty bad down in my district 
and by some of my Republican colleagues. In fact, the chairman 
at the time told me that he would not appoint me to be a 
subcommittee chairman because I would vote with the Democrats 
to pull our troops out of Iraq, which he was right in that 
assessment--not necessarily not naming me as a subcommittee 
chairman but my position.
    The reason I bring this up in when you said back in 2005 is 
that in the year 2000, when Bill Clinton left the Presidency, 
President Clinton left this country as President, we were $5.6 
trillion in debt. Today, Mr. Secretary, the debt of this Nation 
is over $17.6 trillion. I have heard you testify--and you will 
in 2015--that cuts are coming to the military. You are 
concerned about it, and we are concerned about it. You also 
have said that sequestration, if it is not repealed, is going 
to complicate the cuts that are coming without--normally.
    I want to ask you today, do you think that Congress should 
pay for whatever we decide to do and the administration decides 
to do as it relates to Syria and to Iraq? Do you think we need 
to pay for it today or put it on the back of our grandchildren? 
Because we will not be able to continue to police the world, 
and by using what we have is known as borrowing money from the 
Chinese, the Japanese, and all these other countries, because 
we cannot pay our bills today, would you agree that we need to 
pay for whatever we do in Syria and in Iraq, we need to pay for 
it today and not tomorrow?
    Secretary Hagel. Congressman, thank you. And I recognize 
any time any of us ever write anything or say anything, it is 
always at some peril. But let me address my own words for a 
moment and say that I, obviously, agreed with what I wrote then 
and I still agree with it.
    Now, there is a big difference between what we are talking 
about today versus where we were in 2005. The President's 
strategy in where and how and why it was to go forward----
    Mr. Jones. Mr. Secretary, one moment. I apologize to you 
for that. But please answer my question about do we pay for it 
today or do we pay for it tomorrow, because my time is going to 
expire.
    Secretary Hagel. The responsibility of elected officials is 
always to be honest about anything they get this country into, 
any action they take, including paying for it. And I can assure 
you, this Secretary of Defense will be very clear in this 
administration on what we believe it is going to cost, how we 
are going to pay for it. And there will not be any ambiguity 
about that. But, yes, every Congress, every elected official 
has that responsibility, that financial responsibility and 
fiduciary responsibility.
    Mr. Jones. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Secretary, I think, generally, history would show that 
the West won the Cold War. It would also show winning the Cold 
War didn't either end communism or get rid of communists. So 
the point I want to make is, is it fair to say that we might be 
able to beat ISIL as a group, but that is not going to end 
extreme Islamic militants or going to end the desire for those 
folks to try to create a caliphate sometime in the future?
    Secretary Hagel. I can't, nor would I, and I don't believe 
the President would, ever say that what we are doing now and 
attempting to do with our strategy and our focus on ISIL will 
end forever any terrorist group or any group of people who want 
to do harm to our country or establish Islamic caliphate. Of 
course, not. I can't guarantee that.
    Mr. Larsen. That is great. That is what I want to hear, 
because I think we need to have the right expectation here. 
When people ask you what the definition of winning is, it is a 
great question. We just need to have the right expectation 
about what that is.
    Secretary Hagel. But I think also, Congressman, the reality 
of the threat, as it is today, is very real and----
    Mr. Larsen. Yeah.
    Secretary Hagel [continuing]. I will never come before this 
committee overstate a threat or understate a threat. And we 
have a threat.
    Mr. Larsen. Second, in your testimony on page 3, you say, 
``CENTCOM's plan includes targeted actions against ISIL's safe 
havens in Syria. General Dempsey and I''--meaning you--``have 
both approved the CENTCOM plan.''
    So you have approved a CENTCOM plan already that includes 
air strikes inside Syria?
    Secretary Hagel. That plan was provided to the President in 
full explanation yesterday with all the options, all the plans. 
And I laid it out, generally, in my testimony, and the 
President asked that, as to what our options are.
    Mr. Larsen. In your testimony, you say you have approved 
that plan. It was briefed to the President. Has the President 
approved that plan or taken any action to operationalize that 
plan?
    Secretary Hagel. The President has not yet approved its 
finality, but he will do that when he feels that he is----
    Mr. Larsen. I am sure he is putting a lot of thought into 
it. I am not saying he is not. I just want to be sure at what 
step the White House is with that.
    Secretary Hagel. Thank you.
    Mr. Larsen. Thanks.
    The third question, mainly for the general--I don't want 
you to feel left out--on the train-and-equip mission, I think 
Mr. Smith made a good point, it is how we get out of the fight. 
We want to train and equip moderate Syrian opposition. 
Obviously, after 13 years in Afghanistan and Iran, we should 
have learned some lessons about the vetting. And I think a big 
concern is how do we know people are moderate; people are 
Syrian, that is, are committed to a free Syria; and third, that 
they are in the opposition, they are not going to turn on us?
    General Mayville. Yes, Congressman. You raise a good point. 
I think we have got to be very upfront that the vetting process 
is absolutely essential if we want to get this right. We have a 
tremendous amount of experience over the last decade in vetting 
and standing up these types of forces. We have an eye on the 
pool right now of folks that we can draw from, but we need to 
be very deliberate. Despite our best efforts, this will not be 
perfect, but we are looking for individuals that can come 
together that want to defend their community, can work as a 
team.
    They have to be able and willing. They have to be 
appropriate for the task. Many of them will be former military. 
Some will come from the large Syrian diaspora that's already 
been displaced, but many of them are fighting right now against 
the Assad government. We will have to put in place mechanisms 
to assure ourselves of their reliability and make sure that we 
have a system of accountability, and then we will build from 
there. We will build a chain of command. We will take small 
groups and create clusters and build formations. It will be 
something that is a multiyear requirement that we will have to 
look at.
    Mr. Larsen. I think that we will, as it was laid out in the 
amendment we had yesterday, we will have plenty of time to talk 
to you all later on how that is going and what you are running 
into.
    Finally, I don't have a lot of time so I will just make a 
note on this, I was surprised to hear the President use the 
2001 AUMF [Authorization for Use of Military Force] as a 
justification for this, because the last time Pentagon, as I 
recall, was in front of us to discuss this issue at all, there 
was at that time I wouldn't say 100 percent opposition but a 
lot of reluctance in using the 2001 AUMF because there was no 
connection. So, at some point in the future, I would like to 
find out what changed. But time is up, and I do want to have 
that explored at some point.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you for holding this 
hearing.
    Mr. Secretary, thank you so much for giving us your time 
today to help walk through this strategy. I would like to get 
your thoughts on two areas. You know, strategy has a lot of 
components, as you mentioned. When you look at a lot of these 
terrorist groups, the oxygen that tends to feed them is 
twofold: One is hatred, which we can't always do a lot about, 
but the second one is their financing and their money.
    When I look at ISIL, at least the figures that I have, that 
we expect them to get about $1 billion this year through 
kidnapping for ransom, selling oil in the black market, 
stealing money from banks and funding from state sympathizers 
from the Gulf. Could you give us your thoughts on the strategy 
we are going to use to cut that off, one? And secondly, could 
you give me your thoughts--you know, General Dempsey about a 
year ago told us that Syria had five times more air defenses, 
some of which are high-end systems that is to say higher 
altitude, longer range--could you give us your concerns, if 
any, about the impact those air defense systems could have on 
some of our air strikes and our capability of that?
    Secretary Hagel. Congressman, thank you. On the ISIL 
financing, and you stated it correctly, we must cut off that 
funding and those sources, and it is as high a priority in this 
effort as any one priority.
    As I mentioned in my testimony just generally, the Treasury 
Department, through a couple of their offices set up to deal 
with foreign financing and these general kinds of threats, have 
set up a special office on this particular issue working with 
our international partners. You hit some of the main ones, the 
black market avenue that they use to sell oil. They have, as 
you I know are aware, ISIL has taken control of certain small 
oil fields in Syria, and we have some estimates of 100,000 
barrels of oil that those fields are producing, and they get 
them out in different ways, so to cut off that main source.
    You mentioned other sources. They, obviously, have taken 
over cities and towns and resources and banks. But there are 
day-to-day illegal activities that they are involved in, 
businesses that we are trying to find, will find, but that has 
to be working with our partners on it. So there is no higher 
priority than getting that-- to cut that off.
    On your question on Syrian air defenses, I would feel a lot 
more comfortable, Congressman, and we can do this in a 
private--in a closed setting, and we would be very happy to 
come in and give you a thorough briefing on this.
    Mr. Forbes. And Mr. Secretary, thank you. And the other 
thing I would just ask, at some point in time if you could do 
for us, I know we have a priority of cutting off that funding, 
but I think, on the committee, we would love to just hear what 
our strategy is for actually doing, you know, doing that. 
Because----
    Secretary Hagel. Okay.
    Mr. Forbes [continuing]. We would like to know, if they are 
getting $1 billion a year, do we want to get them down to $200 
million? I mean, what have we laid out as our strategy, and 
what exactly is our plan to get our hands around that and do 
that? So if at some point in time you could maybe share that 
with us in whatever venue or setting you think is appropriate, 
we would appreciate that.
    Secretary Hagel. We can do that whenever you want to do 
that, and we could do that--I think it'd be more effective in a 
closed briefing on exactly how we are doing it and take you 
down into some depth on this. And we can coordinate with your 
staff on this.
    Mr. Forbes. Mr. Secretary, thank you so much.
    Mr. Chairman, I yield back.
    The Chairman. I am glad you brought that up. I think that 
is one thing that really separates ISIL from all the other 
terrorist groups is they are so well funded and they have good 
leadership and know how to use that money. So it would be very 
good to attack that.
    Secretary Hagel. Mr. Chairman, we can do it through your 
committee however way you want to do it.
    The Chairman. Well, we just found out there is no votes 
tomorrow, so probably people will be heading to the airport 
pretty quick, so we will get back to you. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Secretary Hagel, your predecessor one-time removed, 
Secretary Gates, as he was leaving, gave a speech at West Point 
where he said, ``In my opinion, any future defense secretary 
who advises the President to again send a big American land 
Army into Asia or into the Middle East or Africa should have 
his head examined, as General McArthur so delicately put it.''
    Yesterday, during the debate on the chairman's amendment, I 
mean, obviously, there was, you know, high anxiety that, you 
know, this amendment was really sort of a prelude to the 
scenario that Secretary Gates warned against. One of the 
reasons why I voted for the amendment was that I think a close 
examination of the text showed that, in fact, we were talking 
about using a program, title 10, which is not about sending in 
large ground forces from the U.S. but, in fact, almost doing 
the opposite, which is to sort of stand up indigenous forces to 
take the fight, you know, to our enemy.
    And I guess I just want to ask you, as long as I've got you 
here, is just, you know, if you could just sort of reiterate 
whether or not that is the correct interpretation of the McKeon 
Amendment, or do you need to have your head examined?
    Secretary Hagel. Well, having my head examined, that 
question is open for many reasons, not just this issue, I 
suspect.
    But I completely agree with Secretary Gates. And I would 
not make that recommendation unless it would be such a 
catastrophic situation that--but I don't think that is the case 
today. I know it is not the case today.
    Now, that said, I think the issue overall, though, is 
always one of, first, identifying the threat, is it real? And 
then, what do you do about it? And your question about the 
interpretation of the amendment is, for example, I mention in 
my testimony, when we put all of the additional soldiers in 
place that the President has ordered, that will be 
approximately around 1,600 Americans in Iraq. The 
interpretation, as I have read the amendment in the CR 
[continuing resolution], is--I think your interpretation is 
correct.
    I said this has to be a partnership--the President has said 
that--between the Congress and the administration. I was once 
on your side of the dais. I understand Article I pretty well, 
the responsibilities of Congress, starting with the fact you 
have the money and the authorities and all that goes with your 
side of the equation. So there are specific issues that we will 
work through on how we implement that amendment and those 
authorities.
    There is always a question of, I think, if we could rewrite 
it, we would probably rewrite it in certain areas. But, 
overall, I think what you have laid out your understanding of 
what you voted for is pretty clear, in my understanding.
    Mr. Courtney. All right. Thank you, Mr. Secretary.
    And in fact, I think one of the benefits of the amendment 
is that it really does engage the Congress with the 
administration as opposed to just kind of abdicating our role, 
which, you know, some of the comments on the floor were just, 
well, let the AUMF from 2001 and 2002 kind of control or 
authorize whatever actions the administration needs to take, 
which, again, I really think is not the way that our checks and 
balances should operate.
    Secretary Hagel. No. Well, I agree. But the difference, 
AUMF, 2001 or 2002, on this particular issue, the train and 
equip moderate opposition for Syria is, this is equipping and 
training a nongovernmental group that we have--I am not sure 
recently or when historically we have done that--I suppose we 
have, but legally, I mean, above board.
    Mr. Courtney. Right.
    Secretary Hagel. And that was different in Iraq. That was 
different in some of these other situations. So--but the 
authority the President has statutorily--and I know there are 
differences of opinion on this, using that AUMF from 2001, 
2002--really it comes down to the connection ISIL has had with 
Al Qaeda and still has in terrorist groups. But the training 
and equipping mission with nongovernmental groups is a little 
different.
    Mr. Courtney. Right. And, again, I think that is our role 
now. I mean, it is by statute that we will get those reports 
from your Department and we are going to have a timeline where 
we are going to be reengaged almost immediately after the 
election.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General, for being here today.
    Over the weekend, the President promised that, as we defeat 
ISIL, there will be no more mistakes. I look forward to working 
with you to avoid his mistakes.
    The Obama mistake of underestimating ISIL as junior 
varsity, JV. We know that 16 months ago, as the President was 
underestimating the terrorist threat and saying it was 
diminished, that that was not true. Dr. Fred Kagan of the 
American Enterprise Institute released a map showing in warning 
of the growing terrorist threat across North Africa, Middle 
East, and Central Asia, and this was ignored by this 
administration.
    The Obama mistake of failing to secure a basic security 
agreement with Iraq, undermining the achievements of the 
American and allied service members who promoted freedom in 
Iraq--and I particularly appreciate that I had two sons serve 
in Iraq and working with the people of Iraq to preserve their 
freedom.
    The Obama mistake of defense sequestration, downsizing our 
military as jihadists expand their safe havens across the world 
to attack the American families.
    The Obama mistake of failing to support the students of 
Iran's Green Revolution. We should remember the Iranian 
revolution supporters in Tehran carried signs in English 
declaring clearly their goals: Death to Israel; death to 
America.
    The Obama mistake of declaring a red line in Syria on 
chemical weapons and then blaming others. Clearly, the red line 
was stated by him in a speech on August 20, 2012, and a year 
later he denied it, which is not correct.
    The Obama mistake of releasing five murderous Taliban while 
negotiating with the terrorists. One of the terrorists was 
praised by the Taliban murderers as the equivalent of 10,000 
warriors to destroy America. It is more important than ever 
that the detention facility at Guantanamo Bay be retained to 
protect American families.
    The Obama mistake of announcing an Afghan withdrawal date, 
disregarding conditions, putting Afghanistan and Pakistan at 
risk.
    The Obama mistake of equating Hamas rocket attacks with 
Israel's self-defense. We should recognize the Hamas creed, 
quote, ``We value death more than you value life,'' end of 
quote.
    The Obama mistake of the Benghazi assassinations cover-up.
    The Obama mistake of the Fort Hood massacre dismissed as 
workplace violence and the Little Rock murder as drive-by 
shooting.
    The President obviously needs to change course and adopt 
peace through strength. We know weakness endangers American 
families worldwide. I believe the President should take action 
remembering September 11 and the global war on terrorism. And a 
way to change course is backing up the Kurdish regional 
government, our courageous allies.
    And I would like to know, what are the plans for weaponry 
for Erbil? I understand there is a problem in delivering the 
weapons. We need to be there to back up people who have been so 
bravely associated with United States.
    Secretary Hagel. Congressman, on your question regarding 
backing up Erbil, the Peshmerga, there is no country that we 
have accelerated our deliveries to quicker than Iraq, 
specifically the Peshmerga. We have had allied countries flying 
missions in there directly to Erbil to reinforce them with 
ammunition, with equipment coming from many nations. It has 
been as high a priority over many months as we have had. So it 
has been ongoing, and it is as high priority as we have with 
our partners.
    Mr. Wilson. And as the co-chairman of the Kurdish Regional 
Caucus, I appreciate that. And I have been to the Kurdish 
region. For decades, they have resisted oppression and 
identified with freedom of the United States.
    A final question from me, Mr. Secretary, is just yes or no, 
is America at war?
    Secretary Hagel. I said America was at war against ISIL, 
just like we are Al Qaeda. I said it in my testimony.
    Mr. Wilson. And we are at war on a global war on terrorism?
    Secretary Hagel. Yes. Terrorists who try to kill us. The 
President is taking action and has laid that action out very 
clearly and has asked for the Congress' partnership.
    Mr. Wilson. Thank you. And actions are so important. Thank 
you very much.
    Secretary Hagel. Thank you.
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And welcome, Secretary Hagel and General Mayville.
    Like all Americans, and I think, as you have heard in our 
discussion today, obviously everyone on this committee and if 
you could have been on the floor throughout the past several 
days, I am greatly concerned with the recent events in Iraq and 
Syria. We know that ISIL is a lethal terrorist organization, 
and we must confront the difficult questions that our President 
has raised about the serious threat that it poses.
    But this is a complex and long-term challenge, and as such, 
I am wary of commitments that the President has admitted will 
spill into future administrations, creating enduring costs 
while raising substantial and unpredictable risks without a 
more robust, clear-headed debate. And I, like Congresswoman 
Sanchez, would have appreciated the opportunity to have this 
hearing with you before we took the vote.
    And I appreciate the President's continued commitment not 
to send U.S. ground forces into combat, but his experience has 
shown any expansion of U.S. involvement in this region raises 
serious concerns over this slippery slope we may find ourselves 
on. Chairman Dempsey's recent testimony that he could foresee a 
scenario in which he could recommend U.S. ground troops in the 
future crystalizes the alarming uncertainties around this 
effort.
    Many questions remain. You have heard some of them 
addressed today, including the cost, the timetable, the nature 
of the participation from the region's Arab states, to name 
just a few. Yesterday's train-and-equip vote, endorsing just 
one piece of the strategy, focused on expanding our effort in 
Syria, masked the multifaceted challenges ahead, and I could 
not endorse it.
    But I appreciate the opportunity today to begin to ask some 
of these questions. In his September 16 testimony before the 
Senate, Chairman Dempsey noted that the United States and its 
allies would work to develop a military chain of command in 
Syria that is linked to a political structure. I would like to 
know more about the political structure that Chairman Dempsey 
is envisioning.
    Secretary Hagel, do you think that the Syrian opposition 
has a solid and widely supported political structure on which 
to base a military command? And, if not, who do you think it 
will be linked to?
    Secretary Hagel. First, on the issue of a political 
agreement and a political resolution, I mentioned that in my 
testimony, the President has been very clear on that point when 
he has said, on many occasions, and I have just noted, that 
there is not a military solution to this in Syria or in Iraq or 
the Middle East. So a political resolution must be achieved. 
Now----
    Ms. Tsongas. Reclaiming my time. But that is not the 
question. We are now embarking upon an effort to train and 
equip the Syrian forces--the moderate Syrian forces that we 
think we can work with. And for it to be effective--and I 
believe he is correct--that it has to be tied to a political 
structure. So to start down this path in which we are focusing 
on training, equipping a force that is not aligned with any 
Syrian-oriented political structure, really in some ways puts 
the cart before the horse.
    Secretary Hagel. Well, not exactly. If, in fact, there is 
no alternative that is allowed to develop in Syria because of 
the brutality of ISIL and other terrorist groups that are 
slaughtering the people in Syria, and you have a regime that 
has no legitimacy to govern, which started all this, you have 
got to start somewhere. And we recognize this is difficult. We 
recognize there is no good option here.
    But if we don't help where we can help develop some 
infrastructure--and this is why we would train in units, not 
individuals--to allow a political opposition to come together 
based on security--because security is required in this, as 
well. It isn't either-or. That is how we envision and that is 
how we would want to go forward. That is partly why this is a 
long-term effort. This is why we have been very clear it is 
complicated. It is serious.
    But if there is no opening, no opportunity for a political 
opposition group to develop because they are all out of the 
country----
    Ms. Tsongas. But you would agree it, obviously, doesn't 
exist today.
    Secretary Hagel. There is very little organizational 
opposition in Syria today, that is right.
    Ms. Tsongas. Thank you.
    Secretary Hagel. And that is part of the problem.
    Ms. Tsongas. Thank you. My time is up.
    Thank you.
    The Chairman. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    This morning I saw a brief news story that said that 
decisions for approving targets for air strikes in Syria would 
be made by the President and only by the President. Is that 
true?
    Secretary Hagel. No, it is not true. That story in the Wall 
Street Journal was not true.
    Mr. Kline. I can't tell you how relieved I am to hear that. 
That is a terrible mistake if we are going to start making 
daily tactical decisions in the White House. So I am very 
relieved to hear that. But that leaves----
    Secretary Hagel. I might just say, I was sitting next to 
the President yesterday when this entire issue was being 
discussed, and he was very clear with General Austin, once he 
makes decisions, he gives General Austin and our military 
leaders the authority to carry out those policies.
    Mr. Kline. Outstanding. As I said, I am very, very relieved 
to hear that.
    That does lead me to the larger question, though. You know, 
I have got 3 or 4 minutes here, but could one of you sort of 
outline what the command structure, what the command and 
control structure is going to be? What is the role of General 
Austin and CENTCOM? What is the role of Iraqi commanders, of 
Peshmerga? Who is going to make the decisions?
    Secretary Hagel. Well, because the general is just a pretty 
face here and hasn't had to answer a question, really, except 
one.
    Mr. Kline. Actually, I was so hoping he would answer.
    Secretary Hagel. Well, you have never been indirect before, 
Congressman.
    So, with your permission, I will ask General Mayville.
    Mr. Kline. Very good.
    General Mayville. The command-and-control structure begins 
with the Government of Iraq and the Iraqi security forces. Our 
role there is to supplement that with what they need so that 
they can make informed decisions. We are doing that right now. 
Now we are going to switch out some of the initial assessment 
teams and replace them with more--with Army advisers that can 
better help at the general officer level, as well as reach into 
the ministries and assist, as well. But the chain of command is 
an Iraqi chain of command, enabled by partners in the region.
    Mr. Kline. Okay. Pretty face or not, let me try it this 
way: I started my questioning by asking about targets for air 
strikes in Syria. So if it is not the President of the United 
States, who is it?
    General Mayville. Now, for targeting, targeting will be 
planned jointly and enabled by U.S. Central Command through its 
CAOC [Combined Air Operations Center], which is in the region. 
The mechanisms to command and control those, they are already 
in place. We did that, you saw that unfurl when we retook Mosul 
Dam. You saw that when we assisted in the operations around 
Haditha and Amerli. So we are not going to change that. The 
CAOC, which is an Air Force command and control structure 
component underneath Central Command, will orchestrate all of 
this. The coordination and the planning, it will be done 
forward in concert with Iraqi forces and Iraqi leaders.
    Mr. Kline. Air strikes in Syria, I am talking about.
    General Mayville. We haven't received authorization. That 
is part of what the Secretary was talking about. We have yet to 
receive authorization for those missions. But----
    Mr. Kline. So it is not the President of the United States, 
but we are not really quite sure who it is to make those 
decisions?
    General Mayville. If I could, sir, whether we strike in--
where we strike ISIL, regardless of its geography, the command-
and-control structure that I just laid out is the command-and-
control structure that we will use wherever the President 
allows us to strike.
    Mr. Kline. All right.
    I yield back.
    The Chairman. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, and General, for being here. I 
think part of the problem, and you heard it with the 
questionings that we are having today, is that because the 
amendment that we voted on involved Syria and the potential to 
train and to arm the Syrian, quote, whatever that moderate 
force will be that is going to be vetted 15 days from now or 
when the Senate passes it, and the fact that the 170 air 
strikes are really in Iraq, and we are talking about our 1,600, 
as far as I know, are in Iraq, that the public, I think, are 
getting confused, as we probably are, as to what exactly is 
being done in Iraq versus what we are authorizing.
    You also know that part of the continuing resolution was to 
fund OCO [Overseas Contingency Operations] at the 2014 level, 
which technically is about $30-some-odd billion dollars more 
than what was requested in 2015. And whether or how you 
determine what that money is and how it plays out for the 
remainder of the continuing resolution is something else, but 
we also know that it was the request early on that the OCO 
funding include the $500 million, which is to arm and train 
5,000 Syrians.
    So having said that--whoever can answer this question, take 
it--my question is really, when we divide the two, not Syria 
part but the Iraq part, which we are clearly engaged in, one, 
where is the funding coming from? Is it OCO funding? Two, how 
much is that costing us per day? And, though we feel that we 
don't have the same kind of legislation as we have in the 
amendment, which clearly defined who would be appropriate 
vetted people in Syria, now who are the people that we are 
vetting, if we are vetting them at all, in Iraq?
    Because right now, air strikes are in Iraq, and we need the 
ground forces, as I understand the philosophy, to be in Iraq. 
So who are we vetting? Because General Dempsey, I think, made a 
statement yesterday that there are 50 brigades or so in Iraq of 
which 26 or 24, 1 of those 2 numbers, are not appropriate 
because it is not of the right composition.
    So who is making these vetting decisions, and what are we 
in for in the Iraq portion of this? Though we have sort of been 
kind of thrown off the path, because we are talking about 
Syria. But our people, 1,600 of them are in Iraq. I think my 
constituents want to know, what does this mean for Iraq? Iraq 
is the concern right now because that is where we are.
    So whoever wants to take it.
    Secretary Hagel. I will give you an answer, and then the 
general may want to go deeper on this. But your question about 
who are we vetting, we would be vetting the Syrian opposition 
forces that we would begin to train and assist.
    Ms. Hanabusa. But I am talking about Iraq.
    Secretary Hagel. But you asked the question about who are 
vetting? That is who we are vetting. It is not Iraq.
    Ms. Hanabusa. So we are not vetting anyone in Iraq? Is 
that----
    Secretary Hagel. The Iraqi security forces under the 
government, the sovereign Government of Iraq and the Peshmerga, 
who, as you know, are part of the overall structure, are in 
place. They are institutionalized. They are functioning armies. 
Now, that is different from what we are doing.
    Ms. Hanabusa. Mr. Secretary, not to interrupt you, but 
General Dempsey said, of the 50 brigades, only 24----
    Secretary Hagel. Those are in Iraq.
    Ms. Hanabusa. No, that is what I am talking about. I am 
talking about Iraq. I said, we have sort of meshed this whole 
thing together, but I am looking at Iraq. So are we vetting the 
Iraqi forces that are supposed to be the ground troops----
    Secretary Hagel. No.
    Ms. Hanabusa [continuing]. Or is it only Iraq that is going 
to provide--the general is nodding and you are saying no. So I 
would like----
    General Mayville. I am nodding because I understand the 
question. I can understand the confusion.
    Secretary Hagel. We are not vetting Iraqi forces and 
troops. What General Dempsey was talking about is the most 
capable Iraqi security forces, Iraqi security forces. Vetting 
in that part of it is part of the Syrian--train and equip 
moderate Syrian opposition.
    General, do you want to add anything to that?
    General Mayville. Yes, Congresswoman, I understand the 
question. I can see how it can be confusing.
    What we are doing today in Iraq is we are, first and 
foremost, securing U.S. Government facilities and U.S. 
Government personnel, American citizens in Iraq. We have two 
operating centers, one in Erbil and one in Baghdad, designed to 
facilitate the Iraqi security forces operations. We advise 
them. We make them aware of what they need to do next, and we 
help them track issues. And, as was mentioned earlier, when 
they go on an operation and it needs to be enabled by air 
support, these operation centers do that as well.
    Most recently, the assessment team that went into the 
Baghdad area, the area that General Dempsey spoke to and 
identified 50 brigades and gave an assessment, that assessment 
is over. And we are changing those forces out, and they will be 
advise-and-assist forces to work with selected brigades and 
divisions in Iraq. I hope that helps.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Rogers [presiding]. Gentlelady's time has expired.
    The chair now recognizes himself for 5 minutes for 
questions.
    And, Secretary Hagel, I first want to thank you for 
yesterday's Medal of Honor ceremony for Bennie Adkins. That was 
very special. I appreciate you doing that for a great American.
    I understand that the administration was prepared to 
acknowledge publicly that the Russians were in violation of the 
INF [Intermediate-range Nuclear Forces] Treaty over a year ago 
but didn't for policy reasons. Do you know what thought went 
into why we didn't publicly acknowledge INF violations earlier?
    Secretary Hagel. I know that we were carefully examining 
the evidence that we had and that we were looking at to see if, 
in fact, they were in violation. But, as to your specific 
question, no, I don't know.
    Mr. Rogers. Okay. Yesterday--or recently, Russia's 
President announced at Yalta in mid-August that he had 
authorized the deployment of Russian tactical nuclear weapons 
into Ukrainian territory. Do you know how the U.S. would 
respond and what the implications are for us if he, in fact, 
does move those weapons into Ukrainian territory?
    Secretary Hagel. Well, again, I think, rather than talking 
about this in an open hearing, we probably ought to do this in 
a closed hearing to take you through a number of steps there on 
this. And I think I would feel more comfortable to talk about 
it that way.
    Mr. Rogers. I understand.
    And do you know why the United States is considering 
continuing to approve Russia's proposals to fly under the Open 
Skies Treaty enhanced sensors and aircraft over the United 
States while it is in material breach of the INF? I am really 
concerned about us going forward with that Open Skies access 
when we know that they are cheating on chemical weapons 
conventions, biological weapons conventions, and now we know 
they are cheating on the INF.
    What are your thoughts on whether we should go forward with 
the Open Skies practice?
    Secretary Hagel. We, as you know, just had a team in Moscow 
last week on this specific issue. We were represented by a 
senior member, Defense Department, State Department led it, and 
others, and these were all issues that were discussed. We, the 
Russians and us, have many mutual interests on different 
things, and what they have done in Ukraine and their actions 
the last 6 months have not only complicated but put in jeopardy 
all of those interests that we have. So we are working our way 
through the very set of questions that you have just asked 
right now.
    Mr. Rogers. So, in fact, this may be one of the 
consequences they may suffer or experience as a result of the 
INF violations----
    Secretary Hagel. Well----
    Mr. Rogers [continuing]. Denied access under the Open Skies 
program?
    Secretary Hagel. No decision has been made on this, but we 
are looking at a lot of different options, and we are talking 
to the Russians.
    Mr. Rogers. Good.
    My last question is, recently or yesterday, the committee 
received the second of two reprogramming requests to the total 
of $1 billion out of the Army O&M [operations and maintenance] 
to pay for the military's efforts to respond to the Ebola 
outbreak. We already have a serious readiness problem. What are 
your thoughts about what this $1 billion would do to that? I 
ask this to either one of you. Doesn't matter.
    Secretary Hagel. Thank you. Two pieces to that. One is the 
money. And second is probably the bigger implication of your 
question, how does that affect, as you say, our readiness and 
our capability to respond to other challenges. And we have got 
a lot of them, as you know.
    On the money, that can be done, okay, by using OCO that 
would not affect our readiness in any other area. But the other 
question that you ask is a legitimate question. Right now, 
General Dempsey and our commanders have agreed that what we 
will be providing the military in assisting in Africa with the 
specific areas that the President announced on using our unique 
capabilities would not affect our readiness anywhere in the 
world, because these are capabilities that we have that we 
wouldn't take away from any of the other areas that we are now 
dealing with that are significant threats.
    Mr. Rogers. So am I hearing that you said that OCO is 
really the proper source for the money? Would it be accurate to 
say that we can expect you to come to the conferees and ask us 
to adjust the OCO levels to reflect this added amount of money 
before we can finish up the NDAA [National Defense 
Authorization Act]?
    Secretary Hagel. Well, I have to talk to the comptroller 
about this and OMB [Office of Management and Budget] on the 
bookkeeping on how that works. But, as you know, Congressman, 
and there are a lot of different opinions on whether there 
should be an overseas account or not and whether it is a slush 
fund or not, but in this case, I think--and it is an imperfect 
process--probably OCO is an appropriate account for this kind 
of thing, these things that develop, these contingencies, 
overseas contingencies situations. I don't think anybody would 
have forecast this, we didn't a year ago, the seriousness of 
this. So we are working it right now with comptrollers and the 
appropriations people here on the Hill.
    Mr. Rogers. Based on the way the world is looking, OCO may 
have to get a lot bigger to accommodate all of the 
contingencies that are popping up around the globe.
    Secretary Hagel. Well, it may. I hope not. But, as you 
know, we have been bringing that OCO account down every year, 
so that is the good news.
    Mr. Rogers. Thank you very much. Thank you for your 
service.
    Who is next?
    Mr. Barber from Arizona is recognized for 5 minutes for any 
questions he may have.
    Mr. Barber. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General Mayville, for your 
service, both in uniform, Mr. Secretary, and in public life as 
Senator and now as our Secretary of Defense.
    You know, I was--took the vote yesterday after a lot of 
consideration about what we were doing when we were giving 
authorization to a limited authority to train and equip the 
vetted and moderate forces in Syria. I was proud to stand with 
my colleagues to give that to you and the President, because 
absolutely, we must stop the savagery that we know has been 
already committed at the hands of ISIL and, also, because I 
want to make sure that we do everything we can to prevent them 
from having a safe haven to send harm our way in the homeland. 
We must do everything we can to prevent another situation in 
which terrorists can attack this country from safe havens 
overseas.
    So I have two questions, Mr. Secretary, one related to that 
and the other to the larger issue of how we really contain and 
hopefully eliminate and destroy ISIL. First, could you speak to 
the question about how you see ISIL's current capabilities for 
carrying out transnational terrorism? And, secondly, could you 
speak to how arming the Syrian opposition will roll back ISIL's 
territory and their ability to launch an attack? And how long 
would you estimate it will take for the opposition to really 
engage ISIL in order to degrade its capabilities?
    Secretary Hagel. Thank you, Congressman. The first question 
on transnational criminal activities as a source of ISIL 
funding, it is part of--and a significant part of--that 
funding, and I think in a couple of the questions that were 
asked here earlier, specifically the black marketing of oil----
    Mr. Barber. Secretary, I was really addressing what is your 
view about how we can prevent their capabilities for exporting 
terrorism into our country and to other countries.
    Secretary Hagel. Well, you have to cut off the capability 
and cut off the funding. And that is what I was talking about 
earlier in answers to some other questions, as well. And that 
is a huge priority of what we are overall in our overall 
strategy how you defeat ISIL, how you degrade them, you 
disconnect them and you defeat them. Taking that funding away 
is a big part of that, and we are operationally doing that 
right now with our partners through the Treasury Department, 
our law enforcement all over the world. And it is a key part of 
degrading any capacity they have in the future.
    As to your longer-term question, how long, I think the 
President has been pretty clear on this. When General Dempsey 
and I were before the Senate committee 2 days ago, we talked 
about this. I can't give you an exact number of years how long, 
but we know it is going to take some time. We know it is going 
to take some years. Maybe we can do it sooner.
    But this is, as you know so well and has been reflected 
this morning in many of the comments, this is a group that has 
capacity that we have never seen before outside of a nation 
state. And you mix in with that the religious dynamic, ethnic 
dynamic, all the other factors that complicate this situation. 
It is going to take some time, and we know that.
    Mr. Barber. In your view, is ISIL capable today of sending 
radicalized Americans back to this country to do harm to the 
United States?
    Secretary Hagel. Oh, I think they are capable of doing that 
today.
    Mr. Barber. Given that, I want to expand the question of 
their threat in the Middle East to Israel, to Jordan, to 
Lebanon. Can you speak to us about what you see is already 
happening and further threats that might exist for those 
countries?
    Secretary Hagel. It is very clear to me, and I think most 
people who have looked at this, and certainly it is to the 
President and his administration, that with the instability 
that currently resides all across the Middle East, that you go 
right through each of the countries, starting on the west with 
Lebanon and you move east, every one of those countries is in 
some form of instability and under threat from ISIL, from other 
terrorists organizations.
    If we see further destabilization of these countries, that 
will create a global problem that will ripple out everywhere. 
Oil, if you would destabilize the major oil-producing countries 
in the Middle East, that in itself would affect world economy. 
It would affect everything. Israel, I mean, you look at where 
we are today in that part of the world; it is probably as 
unstable as it has been in our lifetime.
    Mr. Barber. Thank you.
    Mr. Chairman, I yield back.
    Dr. Wenstrup [presiding]. Gentleman's time is expired.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And Mr. Secretary, thank you for being here.
    Secretary Hagel. Yes, sir.
    Mr. Lamborn. I did support the amendment yesterday of the 
chairman. However, that is only good through December 11 at the 
latest, so we will be revisiting this issue again soon. So, 
because we know ISIL is so dangerous, look what the news is out 
of Australia just today, going against the public, against 
Australians. So this is a bloodthirsty group, and the beheading 
of two Americans is a horrible situation and was one of the 
real reasons why I supported the President's plan.
    However, I would like to have you elaborate on some of the 
details of the President's plan. Other questions have done this 
previously, but particularly, are we contemplating--will we be 
using UAVs [unmanned aerial vehicles] and drones, armed 
Predators and Reapers to take out ISIL leadership like we have 
done in Iraq and Afghanistan, like we are doing now currently 
in Somalia and Yemen?
    Secretary Hagel. Well, the way I would answer your question 
is, and I think the President noted this in his statement to 
the American people a week ago, that we are looking at every 
option, every target using our capabilities and our partners to 
degrade and destroy ISIL.
    Mr. Lamborn. So that is something that is on the table?
    Secretary Hagel. Everything is being closely examined. 
Everything.
    Mr. Lamborn. Because I would certainly hope the President 
would not take that off the table.
    Secretary Hagel. Everything is on the table.
    Mr. Lamborn. Okay. Good. And regardless of whether it is 
Syria, Iraq or any other neighboring country, this leadership 
needs to be--and the American people would support eliminating 
the leadership.
    Secretary Hagel. Well, as you also recall from the 
President's speech, he said wherever they are.
    Mr. Lamborn. Okay. Second issue is the use of our Tier One 
special forces, our elite special forces to mount assaults on 
the ground to capture and apprehend ISIL leadership wherever 
they are found. This is what I meant when I said we were doing 
this in Somalia and Yemen. Is that something that will be 
contemplated and is on the table?
    Secretary Hagel. Well, I think to really get into any of 
the specific tactics, Congressman, we want to probably have a 
closed briefing on that. We can do that.
    Mr. Lamborn. Okay. Certainly, then, let's follow up on that 
at the appropriate time.
    Secretary Hagel. We can do that.
    Mr. Lamborn. And, also, along the same lines, using boots 
on the ground, for lack of a better word, to guide and direct 
close air support, that is something that I think is critical 
also. And, once again, is that something that we can talk about 
in this forum? I want to see as many tools in the tool box as 
necessary so that this plan can be successful, and I think 
taking things off the table militates against that.
    Secretary Hagel. Well, again, within the confines of an 
open hearing, I would again say that we are looking at 
everything, nothing off the table, but I would also point to 
the success here recently regarding the Haditha Dam, Mosul Dam, 
and some of these strikes, where it has been Iraqi security 
forces on the ground with their special forces and our air 
strikes and we didn't have our people embedded with them and 
they were very successful. So the Iraqi security forces have 
capability.
    Mr. Lamborn. Okay. Well, I am glad to hear your answers, 
Mr. Secretary. My concern is, I am just going to echo what the 
chairman said earlier, sometimes the President takes things off 
the table right off the bat, and that that is troubling to me. 
I want to see as many options on the table as possible.
    Secretary Hagel. Well, if I might, and I think you have got 
a little time, so I won't indulge anyone else here, I know how 
that works. I don't think it was a matter, and I know it is not 
a matter of the President taking options off the table of the 
American public. I think what he wants to always make sure that 
the American public is certain and clear of what his intent is 
and what he as the President of this country is willing to do, 
but he wants the American people to understand what is it that 
he is getting them into, what is he asking the American people 
for, and I think that is the clarity you see. Tactically in 
these issues, no, he won't take things off the table.
    Mr. Lamborn. Thank you for that reassurance, and I will 
continue to be supportive.
    Secretary Hagel. Thank you.
    Mr. Lamborn. Thank you, Mr. Chairman, and I yield back.
    Dr. Wenstrup. At this time we are going to go to 4 minutes 
so that we can try to get everybody's questions in before we 
have to go to votes. Ms. Duckworth.
    Ms. Duckworth. Had to start with me, didn't you, Mr. 
Chairman? Thank you.
    Mr. Secretary, thank you for being patient and staying here 
until we freshmen get to ask questions. I very much appreciate 
that.
    Secretary Hagel. Congresswoman, I was a freshman once, I 
understand. You ask the best questions.
    Ms. Duckworth. Thank you. Well, thank you very much. So, 
you know, I voted no yesterday, and it was a tough no vote for 
me because I simply have a lot of questions. If--the vote 
yesterday was on this reauthorization for the $500 million that 
expires in just 7--I am sorry, 12 weeks. Why would we not start 
by asking for that amount of money to arm the Peshmerga and 
putting more forces and more resources behind the troops in 
Iraq first before we go to what is a short-term funding for 
arming these rebel groups in Syria?
    Secretary Hagel. Two answers, Congresswoman. One is we have 
got to do both, and we are presently supporting the Peshmerga 
as well as the Iraqi security forces with literally expanded 
accelerated help, equipment, armaments, and we are doing that 
and have been doing that, and I noted that in an earlier 
answer. So it is not an either-or. We believe we need to do 
both, and we need to get the training and equip part of the 
moderate Syrian opposition piece started as quickly as 
possible, because they both fit into the overall strategy as 
how you defeat ISIL, and you help stabilize those countries, 
particularly Iraq, and so it is not a matter of not doing one 
versus the other.
    Ms. Duckworth. I am concerned that we are starting with the 
rebels.
    General, I had a couple questions for you. If we turn, if 
we actually train and equip these moderate rebel groups and we 
send them back in, my understanding is that they don't have 
much of a command-and-control structure, they are fairly self-
identifying, there are a whole bunch of groups, there is no 
military-like structure like the ISIS and ISIL has, and their 
first mission is to basically defend and deny territory to 
ISIS. How are they able to logistically support themselves once 
we train them and give them this weaponry? How are they going 
to be able to conduct these operations? Who is going to provide 
them with the 556 [5.56 millimeter rifle ammunition], the 40 
mike-mike [40 millimeter grenade launcher ammunition], the 7.62 
[7.62 millimeter machine gun ammunition]? Where is that coming 
from and are we looking now at relying on contractors or secret 
ops or covert ops to do that?
    General Mayville. Congresswoman, we are looking at all 
options of how you sustain this effort once we begin, but you 
do raise an important issue in developing the leadership and 
finding those within these initial formations that have the 
aptitude for additional skills. So we are going to have to find 
who has the aptitude to be a logistician, who has the aptitude 
to be a communications expert, and we will build that 
capability as we build this basic force. The first phase is 
identify and vet them, create a relationship, give them the 
basic training, and let them go back and protect their 
communities. The next thing we will do is we will build off of 
that with skills, and we will stay connected to them. There 
will have to be an oversight, there will have to be 
accountability, and we will have to create a method for doing 
that with the leadership that we identified within the 
training.
    Ms. Duckworth. Just in the last 20 seconds I have, so you 
are not ruling out the fact that we may be actually turning to 
a Blackwater or whatever their subsidiary is, Xe International 
Development Solutions, Academy, whatever they are calling 
themselves to provide the logistical support in the initial 
stages? Is that what we are opening ourselves up to?
    General Mayville. There has been--we are still in the very 
early planning of this, but to date, there has been no 
discussions of anything other than how would we as a military 
would do this.
    Ms. Duckworth. Thank you.
    Dr. Wenstrup. The gentlelady's time has expired. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here, and Mr. Secretary, I 
think I heard you clearly and concisely say, we are at war and 
everything is on the table. Is that accurate?
    Secretary Hagel. Yes.
    Mr. Scott. I think one of the things that is confusing to 
me and I think confusing the majority of Americans is that that 
is not consistent with what the President says when he, as one 
of my colleagues pointed out, takes other actions or potential 
operations off the table, and my granddad is no longer here, 
but he was a World War II POW [prisoner of war] and a B-17 
pilot, and he would tell you that the first, the first decision 
is the decision to win and make sure that we are willing to do 
whatever it takes to win.
    Desert Storm was in 1990. We have been in that country, in 
those countries on and off for 24 years, over half of my life. 
We have spent trillions of dollars, we have had hundreds of 
thousands of Americans in there, hundreds of thousands of other 
people that we have trained, and, General, these 5,000 moderate 
Syrians ought to be pretty easy to find. I assume they are 10 
foot tall and bulletproof. My question is, how can 5,000 
moderate Syrians do what the United States and all of our 
coalitions could not do in 24 years?
    General Mayville. Well, 5,000 moderate opposition groups 
with basic training to secure their villages will have some 
effect, but it won't have the decisive effect that you speak 
to, but it is only one part of a larger effort. That larger 
effort includes training, continuing to assist in the Iraqi 
security forces counter ISIL. We will have the use of our 
airpower to assist where it is necessary, and we are also 
looking to employ the support, the direct support of partners 
in the region. So we are going to squeeze on this through 
multiple venues.
    Mr. Scott. Then, with due respect, the President should 
outline that. There should be a separate vote, not a vote on a 
continuing resolution. I blame this on my leadership as much as 
I do the President. This is much more serious than an amendment 
to a continuing resolution. I would also suggest, you know, the 
Sunnis and Shi'as have been fighting since the 7th century. We 
don't understand that war, certainly not all of them 
participate in it, but when we talk about beheadings, you know, 
Mr. Secretary, it is my understanding that the Saudis beheaded 
eight people in the month of August, and they practice one of 
the strictest forms of Sharia law and do some things over there 
that by any stretch of the imagination I think any American 
would consider barbaric. And so how do we pick our friends?
    Secretary Hagel. Well, I think the first way I would answer 
your question is America, I think any country, always responds 
in its own self-interest. What is our interest here? I think 
you asked the question when American citizens are publicly 
killed, murdered, is that in the interest of this country? 
Well, I think it is. Is it a threat to who we are? I think it 
is. So you can take that out as far as you want. So that is 
partly, I think, the answer.
    But your bigger question, which is exactly the right 
question, the history of that area, we can't interject 
ourselves or impose ourselves on any country or traditions or 
history, and what we are doing differently is bringing in 
partners from the region. This, as the President has said, what 
I said, has to be settled by the countries themselves, and that 
means the Arab countries, the Muslim countries. We can help, 
but we can't alone dictate or determine the outcome of that. 
But it is in our interests.
    Dr. Wenstrup. The gentleman's time has expired. Mr. Maffei.
    Mr. Maffei. Thank you, Mr. Chairman.
    Mr. Secretary, Lieutenant General Mayville, thank you for 
your service to our country. Can you describe to us what--there 
is talk about coalition. What are the members of the coalition 
that actually are going to have people on the ground either as 
military advisors or troops along with us?
    Secretary Hagel. As I said in my opening testimony, we are 
close to 50 coalition nations who are----
    Mr. Maffei. Mr. Secretary, I don't mean to interrupt you, 
but specifically have committed to having people there arm in 
arm with us, not just supplies, not just--but actual human 
beings on the ground helping us with that mission.
    Secretary Hagel. Each country will provide assistance based 
on their capacities too. Some will be airpower, some will be 
people. We have had a number of military offers. We are 
coordinating that now I noted in my testimony. General Allen 
has the essential responsibility of bringing that together, 
coordinating each of these pieces. So we are in the process of 
doing that.
    Mr. Maffei. Okay, thank you. I am a little bit still 
confused about the nature of this. The President promises no 
combat mission, and I know you have been questioned by other 
folks about sort of what that means, but I am concerned that 
whether our people are over there on a combat mission, a 
training mission, advisory mission, they will become targets. 
Can you just clarify, if we have people that are shot at, they 
will have, the rules of engagement will say they should defend 
themselves, correct, sir?
    Secretary Hagel. Oh, absolutely.
    Mr. Maffei. I appreciate that and I am glad. But won't that 
then lead to combat missions, maybe not offensive combat 
missions, but if our people are in harm's way, won't they be in 
combat?
    Secretary Hagel. Well, anybody in a war zone who has ever 
been in a war zone, and some of you have, know that if you are 
in a war zone, you are in combat. What the President has said 
that there would be no specific American ground combat role. I 
think that is pretty clear. Yes, if you have advisors in a war, 
they are in a combat zone, yes. But the role of Americans in 
that war, as the President has laid out, I think is pretty 
clear, what he said we will do and what we won't do.
    Mr. Maffei. Can you or Lieutenant General give us any sense 
of how many Americans will be put in harm's--how many Americans 
additionally will be put in harm's way either in the theater or 
near the theater?
    Secretary Hagel. Well, what I said in regard to the 
President's announcement last week on what he has ordered now 
additional American forces into Iraq, by the time they all get 
there, there will be around 1,600 American forces in Iraq.
    Mr. Maffei. And they would be in Iraq?
    Secretary Hagel. In Iraq.
    Mr. Maffei. Not Syria?
    Secretary Hagel. Not Syria. In Iraq.
    Mr. Maffei. Okay. Just finally, I guess trying to figure 
out again who exactly we are helping. You speak of sort of the 
``we'' in this, and I know you have been asked similar 
questions, but I am still fuzzy on how exactly you are going to 
identify the forces that we can train, we can enhance, and I 
guess it goes back to my allies question, and are they going to 
be alone, is this just going to be a few Syrian fighters, 5,000 
each? Because it seems to me that if we are training them, yes, 
we will eventually build up a force there, but in the meantime, 
won't our enemy build up their force far more than we can catch 
up?
    Secretary Hagel. Well, a couple answers to your question. 
It is a beginning. We might be able to do more than 5,000 a 
year. As I said in my statement, it depends on more training 
sites, more vetting, more people. We are going to train them in 
units, equip them in units, not just rebels here and there, so 
that they are prepared to take on more and more responsibility. 
With our partners. That is another piece of this. This is an 
undertaking that is pretty dramatic and sophisticated. It is a 
beginning, but at the same time, all of the other dynamics of 
this strategy, what is going on, as General Mayville just noted 
here a minute ago, are in play at the same time. We are not 
just relying on that train and equip moderate Syrians.
    Mr. Maffei. Thank you, Mr. Secretary.
    Dr. Wenstrup. The gentleman's time has expired. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And Mr. Hagel and General Mayville, I really want to thank 
you for your service across the board, and it has been varied 
for Secretary Hagel in a number of ways, going back to Vietnam. 
We really do appreciate that.
    You made a comment about combat, so I want to make sure 
that our troops, the 1,600 that are in Iraq, are going to be 
compensated as they should be reference to combat pay, because 
they are going to be exposed to that at some point in time or 
could be. Are they going to be?
    Secretary Hagel. Yes, they are now, but let me have General 
Mayville explain how that is----
    Mr. Nugent. Okay, so those currently in country are 
receiving combat pay?
    General Mayville. Let me not get in front of that important 
decision that will come to the Secretary, but typically you are 
talking about hostile duty pay?
    Mr. Nugent. Yes.
    General Mayville. And there are a set of procedures clearly 
outlined and under what conditions one is entitled to that.
    Mr. Nugent. Okay.
    General Mayville. And we will apply that standard here, and 
it will go to the Secretary.
    Mr. Nugent. So the answer is the Secretary will make that 
decision whether or not?
    Secretary Hagel. Yes, and they will be compensated.
    Mr. Nugent. Thank you very much, I appreciate that. You 
know, I voted no. I will tell you it was difficult, but at the 
same time, because of all of the briefings I have heard, and 
you have touched on it, you know, the Syrian force that we are 
talking about training and equipping, and the reason I voted no 
was, you know, they have very little organization, there is 
no--and you mentioned this, there is no political structure in 
place to support them. I would support an Iraqi issue because 
there is a political force to at least start talking about how 
to fix things. Command and control.
    We know that at this point in time there is no command and 
control for the Syrian free forces or whatever you want to call 
them, and there is for the Iraqis because we helped build that. 
And training or retraining the Iraqi force is a whole lot 
easier than trying to train up, by the President's own, you 
know, description of, you know, guys that are, you know, the 
regular folks. They may have some combat experience now because 
they had to fight for their lives, but they are certainly not a 
trained combat, just as Iraq is because we trained them, even 
though they have had some issues, but we still have at least a 
base to start from, and I guess that is why I disagreed with us 
getting involved in the train-and-equip portion in Syria when 
we have the ability to do that I think and win in Iraq. I think 
we have, and I think we have shown that we can work with them.
    So it gets a lot, it is a whole lot of hoping and wishing 
in the fact that--and I know it depends upon the training 
facilities that we have available, but the testimony has been, 
you know, 3 training facilities, 5,000 troops. I don't know 
how--how do we overcome those other things, the command and 
control, political system, and the actual trained forces, 
because the fact remains static, obviously, in Syria as we move 
forward, if you could.
    Secretary Hagel. Well, here, the way I would explain it, 
and it is my opinion and the opinion of the President that if 
you are going to defeat ISIL, and that is the objective, as the 
President has laid out, you are not going to defeat ISIL just 
in Iraq. Matter of fact, most of the ISIL threat is in Syria, 
safe havens, training camps, resources.
    Mr. Nugent. I get that.
    Secretary Hagel. So you are going to have to deal with them 
in Syria.
    Mr. Nugent. But I would think a step by step, at least an 
approach where you can drive them out of Iraq while we have the 
opportunity to, and as we are doing it, focus then back on 
Syria. I yield back, I apologize.
    Secretary Hagel. We have to do both at the same time.
    Mr. Nugent. I appreciate that.
    Dr. Wenstrup. Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for joining us. I am of the opinion that the 2001 
Authorization for the Use of Military Force needs to be 
rescinded and that a more specific authorization needs to be 
drafted to combat the ISIL threat.
    What cautions, what advice and requests would you have for 
us if we were to consider that effort of drafting a new 
Authorization for the Use of Military Force?
    Secretary Hagel. Well, as you know, we believe the 
President has the authority under the AUMF of 2001 to do what 
he believes that is important to do for the security of this 
country. He also has said he welcomes the Congress' 
involvement, support. If the Congress believes that they want 
to get involved in writing a new authorization of force, that 
is the prerogative of the Congress. But to go beyond that as to 
advise you, I am not a lawyer, so I would leave that up to the 
lawyers and specifically what the White House thinks they would 
need if that is something that they think they should want to 
do or need to do.
    Mr. Kilmer. Is there anything specific that you would want 
or not want in such an authorization? I understand that you 
believe you currently have that authorization. I guess the 
question I have, in one of the briefings we had, it was said we 
would welcome if Congress wanted to provide a more specific 
authorization. Any constraints or things that you would want to 
see in that regard?
    Secretary Hagel. Well, I think anytime--and I am going to 
be general in this because that is not my area. That is really 
the President have to make those kinds of decisions. But for 
us, Department of Defense, who we are always the ones required 
to implement, we would want to have the Commander in Chief have 
as much flexibility within the bounds of accountability, which 
in a coequal branch of government we have to have, we recognize 
that, but for us, we have to have that flexibility and I think 
the Commander in Chief does as well in order to carry out his 
duties.
    Mr. Kilmer. The other question I had for you was has the 
Department begun to consider the second- and third-order 
effects of providing air support and training and supplies as 
prescribed by this mission? I am particularly concerned with 
the wear and tear on our military airplanes and seagoing 
vessels that may have a higher utilization rate, and as a 
consequence, require more maintenance than was originally 
presumed in the President's fiscal year 2015 budget submission. 
As the presumed $500 million OCO dollars to train and equip our 
allies won't cover that initial maintenance, where will the 
additional money come from, OCO or O&M accounts or through a 
supplemental request?
    Secretary Hagel. We are looking at all that right now, and 
you are right, as we pick up the pace on this mission and do 
the things that we need to do, we are going to most likely have 
to change some of those numbers, but that is not new. I mean, 
the world is dangerous and it is fluid and it is dynamic.
    Mr. Kilmer. Thank you.
    Secretary Hagel. Thank you.
    Mr. Kilmer. Thank you, Chairman, I yield back.
    Dr. Wenstrup. Thank you. At this time I will take my 4 
minutes here, and I appreciate you both being here. You know, 
as we look back on things, I remember Vice President Biden 
saying the victory in Iraq will be one of the greatest 
successes of the Obama administration, and as I look out and I 
see those of you with your combat patches, I would say the 
success goes to those that were in the field. But that being 
said, we did succeed and we succeeded with combat troops and 
using all of our assets, and it was a gift to Iraq that 
unfortunately has fallen apart.
    My concern is when we start talking about counterterrorism 
operations as opposed to full combat, I have some concerns 
there. ISIL, to me, is somewhat of a state, not a recognized 
state, but they actually have territory, they have wealth, and 
they have an army, and they are different than the typical 
terrorist effort, and I understand our desire to want to use 
the Kurds and the Iraqi Army and the Syrian forces that we are 
talking about.
    My concerns stem from the questions you got earlier about 
who has got the central command here, I mean, who is really 
calling the shots when you are putting these pieces together, 
and I have the concern with that, but also in another hearing I 
had asked is the Iraqi army or the Peshmerga willing and 
authorized to move into Syria if that is what it takes to 
destroy this enemy ultimately, especially if our effort with 
the Syrians is not successful? And the answer I got was no. And 
to me that is like saying in World War II, well, we will go to 
Germany, but we won't go in and defeat them. And so what is our 
contingency here? What are we going to do if this effort in 
Syria is not successful, knowing that our strongest assets on 
the ground are not willing to go into Syria where they have 
safe haven at this point?
    Secretary Hagel. First, I think we recognize that Iraq is a 
sovereign country, so we don't order Iraq to do anything. We 
can't.
    Dr. Wenstrup. Understood.
    Secretary Hagel. So if Iraq makes a decision for whatever 
reason, that is their decision.
    Dr. Wenstrup. But see that to me is their objective is to 
liberate Iraq from this enemy, from ISIL, but our objective is 
to destroy ISIL. So I am concerned about the strength of what 
we have in Syria. We may run them into Syria, and then what if 
we are not succeeding there?
    Secretary Hagel. Well, that is exactly right, that we are 
looking at this from a borderless dynamic, that ISIL is a 
threat to all the nations of the Middle East. Right now they 
are principally focused in--their safe haven is in Syria, which 
is ungovernable, as you know, in the eastern part of Syria, so 
with the strategy that we have laid out and we are implementing 
with partners, partners again essential, strong, united, 
inclusive Iraqi government essential, we have got the--must-
have Muslim Arab partners essential as well as other partners 
in order to destroy ISIL, and you are exactly right, it isn't 
by borders. We are not dealing with that. Each will play roles 
where they can.
    Dr. Wenstrup. My time is running out, but I would hope 
maybe in another setting, a classified setting, perhaps, we can 
find out what some of those contingencies might be because I 
know the good general has already anticipated some of these 
things as a strategist, and it is not necessarily something we 
want to expose to everyone. So.
    Secretary Hagel. Thank you.
    Dr. Wenstrup. I appreciate that, and I yield back my time. 
At this time they have called votes, and so we are going to 
break and I have been told we are going to return after the 
votes. And I, again, appreciate both of you for your time 
today. And I do encourage members to come back, even some of 
those that have left and get them back. Thank you.
    [Recess.]
    Mr. Byrne [presiding]. The committee will come back to 
order and the chair recognizes Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. Thank you 
for holding this meeting.
    Secretary Hagel and Lieutenant General Mayville, thank you 
for appearing this morning and this afternoon before this 
committee, and I thank you for your steadfast leadership and 
dedication to service, and I applaud, I want to go on record as 
saying that I applaud the President for his four-point strategy 
to defeat ISIL.
    Now, the first question I have is, as you can imagine, talk 
of these actions against ISIL have stoked some concern in the 
Asia-Pacific region that the rebalance strategy will be 
abandoned or not fulfilled. I don't necessarily share these 
concerns, but I was hoping that you might be able to touch on 
how we balance our efforts to degrade and destroy ISIL and 
meanwhile keep to our commitments in the rebalance strategy in 
the Asia-Pacific area. Secretary Hagel.
    Secretary Hagel. Congresswoman, thank you, and I think your 
question is an important one because, as we all know, the world 
is faced with many threats, America is faced with many threats, 
and we always have to keep in mind all of our interests around 
the world, and certainly the rebalance to Asia-Pacific is one 
very clear commitment and interest we have.
    Our efforts against ISIL will not affect our commitment to 
Asia-Pacific, as the President has made very clear. That 
commitment, that rebalancing will continue, and I think we 
have, over the last couple of years in particular, have made 
great progress as we have enhanced our relationships and 
partnerships in your part of the world, and very much 
appreciate Guam's role in all of this because you are a key, 
key area, and the people that you represent I want to also 
thank for their hospitality to all of our men and women who 
serve there.
    Ms. Bordallo. Thank you very much, Mr. Secretary, and I 
thank you for your very direct answer to my question.
    The other one is I noted on Tuesday that Chairman Dempsey 
talked about how this is a generation problem, and this battle 
against ISIL will be protracted, a protracted war, and with 
that in mind, what is the exit strategy for U.S. service 
members? If we are doing our job right over there, at some 
point our training teams should work themselves out of a job as 
the countries in the Middle East take on these roles. So what 
is the plan for the exit?
    Secretary Hagel. You are correct that our role and our work 
with our partners is with an exit in mind, but let's start with 
what we are doing and how we are doing it. First, the 
responsibility for bringing Iraq back into a strong position to 
defend itself is a responsibility of the Iraqis, the Iraqi 
security forces, Peshmerga, the government, the new government 
of Prime Minister Abadi, and bringing all the various segments 
of that country together.
    So it is not our responsibility. We are going to help them 
do that, we are going to support them in their efforts to do 
that. We will keep, obviously, some contingency of force there, 
but this is a different situation than we have had before. It 
is their responsibility and their fight, but we will help them.
    Ms. Bordallo. Thank you very much, Mr. Secretary. I really 
appreciate your answers to my questions, and Mr. Chairman, I 
yield back.
    Mr. Byrne. The gentlelady yields back. The chair recognizes 
himself for 4 minutes.
    Mr. Secretary, thank you for being patient with us. We had 
a series of votes, and there were some of us that didn't have a 
chance to ask you some questions. We appreciate your sticking 
around for this. I voted for the McKeon Amendment yesterday, 
but I recognized in doing so that it was one element, and it 
has a limited duration, and we will be back, at the very least, 
to consider what we are going to do about that one element, but 
obviously it is one element of what is going to be a much 
bigger strategy, and the President has some key decisions to 
make there, and we heard you talk about some of those today.
    My first question is, is it the President's intent, your 
intent to come back to us with a bigger strategy, the full 
strategy so we can understand how that element and other 
elements fit together and operate together? And, if so, will 
you bring that back with a new AUMF because there are a lot of 
us that believe there needs to be a new AUMF, and we can get 
into the legal arguments about it, but as a matter of good 
policy, would you think that in addition to just giving us a 
strategy, there should be an AUMF that accompanies it?
    Secretary Hagel. Congressman, thank you. On the AUMF, as 
you heard me say this morning and what the President has said, 
we believe, he believes he has the authority to do what he 
needs to do to keep this country safe and to degrade and defeat 
ISIL within the statutory authority that now exists. He has 
also said, as I have said, that he would welcome the 
President--or the Congress' involvement, would welcome a 
rewrite of any of those authorizations. That is up to the 
Congress. But in the meantime, he feels strongly that he needs 
to take action on these threats now.
    As to strategy, the strategy that the President generally 
laid out to the American people last week as I am up here 
testifying on today--Secretary Kerry is as well, has been--I 
was in the Senate a couple of days ago as you know. Other 
cabinet members have been up, we have been up briefing over the 
last 2 weeks, as you know, in closed-door sessions, and I am 
sure you have been part of those briefings, all in an effort to 
further define and bring some clarity to the strategy, how are 
we implementing it, what resources we are going to continue to 
need, what are the dynamics to each of these.
    So I don't think the strategy changes. Obviously as we 
comply with the continuing resolution limits, having to come 
back in December with more information, and I suspect in the 
next 3 months we will have more fidelity and clarity on a 
number of things. As you know, these are fluid and dynamic 
challenges. We have to be prepared for that, be ready for that. 
So the basic strategy I don't think is going to change or 
shift, but as we evolve in our requirements and how we are 
implementing that strategy, will, I suspect by necessity, be 
redefined and changed and shifted just the tactics of how we 
are implementing it.
    Mr. Byrne. Well, let me offer this observation; not advice, 
just an observation. In listening to my colleagues in the House 
as we were debating the amendment, as we were talking among 
ourselves, I think it would be very helpful to you in getting 
successful votes in the future if there was a clearly 
articulated strategy, complete, comprehensive strategy. And I 
think it would equally help if it was accompanied with a new 
AUMF. There are some of us that took the vote yesterday knowing 
that it was of a limited time duration, that we were only 
talking about one element, and I think it would strengthen our 
ability to support you and support the President, and perhaps 
gain some more votes if we had it all laid out for us, it was 
all put together in a package.
    I am not trying to get into a legal argument with you or 
the President about legal authority. I am talking about good 
policy. So I just offer that observation to you and hope that 
you will take that back to the President.
    Secretary Hagel. Congressman, thank you, I will. I 
understand what you are saying.
    Mr. Byrne. Thank you very much, sir. The chair recognizes 
Mr. Gallego for 4 minutes.
    Mr. Gallego. Thank you, Mr. Chairman. And Mr. Secretary, 
thank you for hanging out and staying. I know that, you know, 
many times when this row gets to ask questions, the witness has 
to leave, so I appreciate the courtesy.
    Very quickly, when we are talking about strategy, I mean, 
one of the things that I hear is that, you know, we are very 
capable of winning battles, but in the long run, we lose the 
war. That is certainly the impression that so many of the Iraq 
war, the second Iraq war veterans have in the district that I 
represent. And, as you know, it is a district that, it is 
bigger than 29 states, I mean, it is about 24 percent or so of 
the land area of Texas, it is a huge swath, disparate opinions, 
but there seems to be a good consensus that, you know, the 
strategy that we had outlined is a strategy for a specific 
purpose, a limited purpose as opposed to a more big picture 
long term, you know. And the perception is we have seen this 
movie before. What makes us think that the ending on this 
particular case is going to be any different than the endings 
that we have seen before? What makes this different from other 
times?
    Secretary Hagel. Well, first, I think that the strategy 
that the President laid out corresponds very directly and 
clearly with the threat, and that threat has been identified 
and defined, I think, pretty clearly by the President and a 
number of us. This threat that ISIL presents to the United 
States, to our interests, to our allies, certainly to the 
region, we believe is very clear.
    Now, that said, the strategy that the President has 
announced that we are in the process of finalizing and in the 
process of implementing is different in many ways. Number one, 
it includes the, not just the strategic but the tactical buy-in 
of many partners, including partners in that region, including 
Muslim Arab countries.
    Second, it defines our role in a very clear way. As the 
President said, there will not be American combat 
responsibilities on the ground. We will have support missions 
where we can help, where we have unique capabilities, along 
with our partners. Another essential part of this is a new 
Iraqi government that must bring an inclusiveness and a 
representation to not just the government but the governing, 
where the new Prime Minister brings all the people in.
    I think the clear threat that ISIL presents to all of those 
countries is so clear now and the common interests are so clear 
that that is different from anything I can recall in how we 
have, certainly in the recent, in our recent history how we 
have gone about anything.
    Mr. Gallego. One of the important things that I would ask 
you to keep in mind as you move forward is, as you talk about 
getting investments from others, is that we need to make sure 
that the American people are invested in this as well. I mean, 
you know more than most even in this room about what happens 
when an American public is not supportive of U.S. military 
action, and it is very important that the public be kept 
engaged and that they be supportive of the President's action 
and, frankly, America's actions overseas.
    Secretary Hagel. Congressman, thank you, I get that and I 
think, again--in fact, I know one of the reasons the President 
wanted to make that address to the American public last week 
was for that very reason, and we will continue to make that 
point. Thank you.
    Mr. Gallego. Thank you.
    Mr. Byrne. The chair recognizes Mrs. Davis for 4 minutes.
    Mrs. Davis. Thank you very much, and thank you, Mr. 
Secretary, for staying. I appreciate it.
    You know, we know that this is just fraught with 
complications, but my belief is that the consequences of doing 
nothing is also fraught with great risks, and I appreciate the 
fact of moving forward when we don't have all the answers 
clearly. You can tell from the questions here and the questions 
throughout the last few weeks and the way, frankly, that the 
vote came up, good bipartisan yes and no, and so that means 
that we all have a lot of work to do, I think, and I know you 
appreciate that.
    The President requested that authority in order to provide 
direct military training for our moderate Syrian rebels so that 
they have an alternative to ISIS, but the concern is partly the 
lack of unity among the disparate parts of those who have not 
chosen to join and are engaged in other areas. But I wonder if 
you could talk about that difficulty that we are going to face 
with whether it is dual alliances, the desire to defeat or to 
certainly weaken the Assad regime versus pushing back against 
ISIL.
    Have we ever trained and worked with a new group of troops 
who have that kind of dual goal, and perhaps it is not even 
dual? How do you see that coming together? I think the other 
concern is we obviously are looking for intel on the ground, 
and yet when it comes to air support and the intel on the 
ground, which is why we are training the Syrian forces first in 
local communities and then hopefully to be more helpful in the 
broader goals, we are going to need to have more, whether it is 
partner support on the ground or U.S. support on the ground as 
well. And, again, in terms of how we describe that strategy, I 
think that is very important to people, and that is another 
area that we really haven't heard much about.
    Secretary Hagel. Congresswoman, thank you. You ask a very 
important question, and you led with that, with the reality 
that it is complicated. I suspect Members of Congress hear that 
maybe all too often on all issues, but this one is complicated, 
and your question does reflect that complication.
    Let me answer it this way: The moderate opposition forces 
that we will be vetting, and that process I think we talked at 
some length about this morning, how we would do that and so on, 
are people in Syria, people who have lived in Syria, who are 
citizens of Syria, whose families have lived there for a long 
time, they are being and have been squeezed right now--are 
being squeezed--by both the Assad regime and by ISIL and other 
terrorist groups.
    Right now there is nothing that they have in any 
coordinated organized way to give anyone in Syria who wants 
their country back and some kind of a future of peace and 
stability for their families and themselves any hope or any 
possibilities to build on. So the moderate opposition 
understands it is not a choice between necessarily ISIL and 
Assad. Yes, ISIL is who we are focused on, and that is our 
primary mission and objective here is to destroy ISIL, but the 
reality is that people that we will train have to deal with 
that, both of those realities, and they need a new political 
base that will, we believe, will come from this possibility of 
organization and hope that we can help with a new moderate 
opposition.
    Mr. Byrne. The gentlelady's time has expired. The chair 
recognizes Mr. Langevin for 4 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here today.
    Is this on? Okay, there we are. Thank you, Mr. Secretary.
    Mr. Secretary, I was one of those individuals who voted in 
favor of the resolution supporting the President's plan last 
night. I did it with mixed emotions, and I know it is not a 
perfect plan, but I think we need to start somewhere, and I 
believe ISIL does pose a threat to the homeland and to our 
allies around the world based on the knowledgeable testimony I 
have heard from this committee and my work on the Intelligence 
Committee.
    My concern is, though, that there are going to be boots on 
the ground that are going to be required, but we don't want 
them to be U.S. boots, and I support the President's position 
there, and I know you probably have talked about this already, 
but for my knowledge, I need to know the commitment that we 
have from our neighbors in the region in terms of what they are 
going to be able to do to put boots on the ground, because my 
constituents are really adamant that they don't want a big U.S. 
footprint involved in this with forces on the ground, but, you 
know, and I know, I am concerned, we hear that it is going to 
take up to a year potentially to train the forces that we are 
training in Syria, and that is obviously too long a timeframe.
    If we had nations in the region who were willing to put 
boots on the ground now, at least to start with, it would be 
something to hold us over until those forces are trained and 
are going to go in and actually battle ISIL on the ground. So 
would you comment on that?
    Secretary Hagel. Congressman, thank you, I will comment on 
it. First on your question on coalition partners and what are 
they committed to do and when will they start doing it, and all 
of the follow-up questions that go with it, just as an example. 
I understand this morning, I have not seen the report, but I 
knew it was forthcoming that President Hollande announced that 
France would be involved in military operations with us to 
destroy ISIL over Iraq, the next piece of this, Syria, and so 
on, as far as I know they have not made a decision, but that is 
just but one, since it just happened this morning, an example 
of how we are having more and more of these coalition partners 
come forward.
    But the bigger question that you asked specifically about 
partners in the region, coalition partners in the region, how 
are they going to play a role as we take time to build these 
moderate Syrian forces in our train-and-equip program.
    Again, I would emphasize the importance of the entire 
dimension of the strategy. The train-and-equip portion of the 
moderate Syrian opposition is part of that, but so is a new 
Iraqi inclusive government to bring in the Sunnis and Shi'as so 
we can start to get the Sunni tribes in western Iraq back off 
of that support of ISIL and back with the government. Coalition 
partners, their involvement through military action, our air 
strikes will continue to help Iraqi security forces continue to 
work the offensive, take back territory, hold territory that 
they had lost to ISIL, stabilize Iraq.
    All these different dimensions are in play at the same 
time. Yes, it is going to take some time to start training 
these people, the right people, the vetted people in groups 
where we are not just training one or two terrorists, or 
antiterrorists, or fighters, but groups have discipline, 
strategy, tactics, weapons, that they can offer then a base of 
a beginning in Syria, not just a military option, but also 
political opposition to build around that. So it is going to 
take some time, but it is all these other elements of the 
strategy working at the same time toward the same end.
    Mr. Byrne. The gentleman's time has expired.
    Mr. Langevin. Thank you, Mr. Secretary.
    Secretary Hagel. Thank you.
    Mr. Byrne. Mr. Secretary, thank you for coming today, thank 
you for your patience and your candor. This is a great threat 
facing the people of our country. You are very concerned about 
it, and we share your concern. We know that this needs to be a 
partnership between you and the President and the Congress, and 
we want to continue to work with you, and we appreciate the 
further communications we know we are going to be receiving 
from you.
    Secretary Hagel. Congressman, thank you very much, and I 
very much appreciate the questions, the attention, and the 
support.
    Mr. Byrne. Thank you, sir, and this committee is adjourned.
    Secretary Hagel. Thank you.
    [Whereupon, at 2:32 p.m., the committee was adjourned.]


      
=======================================================================



 
                            A P P E N D I X

                           September 18, 2014

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 18, 2014

=======================================================================


      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 18, 2014

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. KLINE

    Mr. Kline. Secretary Hagel, you testified that reports of President 
Obama personally selecting each target in Syria or President Obama 
individually authorizing each target nominated for strike in Syria were 
erroneous. If the reports are wrong and the President is not personally 
selecting targets, please answer the following: To whom has the 
President delegated this selection authority and who will be nominating 
and giving final approval for prosecution of targets in Syria?
    Secretary Hagel. General Austin, the Commander, U.S. Central 
Command (CENTCOM) has been delegated the authority to select and engage 
targets in Syria. General Austin has further delegated the authority to 
engage targets in Syria to the Combined Forces Air Component Commander 
(CFACC) and the Commander, Task Force 94-7 (TF 94-7). Targets for 
deliberate engagement are vetted through the Intelligence Community at 
the request of CENTCOM's Intelligence Directorate. This vetting ensures 
the accuracy of the supporting intelligence. Once vetted, each target 
is validated at CENTCOM to ensure it falls within the Law of War and 
supports the CENTCOM Commander's intent and objectives. These vetted 
and validated targets are then approved for strike by General Austin 
upon nomination by the CFACC, TF 94-7, or the CENTCOM Intelligence 
Directorate. Dynamic targets, also known as targets of opportunity, are 
approved for engagement through the appropriate target engagement 
authority.
    Mr. Kline. Please provide the committee a ``wire diagram'' of the 
command relationships and responsibilities that have been created for 
the ongoing operations against the Islamic State of Iraq and the Levant 
(ISIL), include all partner (coalition) nations and their 
responsibilities and authorities and annotate any national caveats 
coalition partners have placed on their use in the on-going campaign 
against ISIL.
    Secretary Hagel and General Mayville. [No answer was available at 
the time of printing.]
    Mr. Kline. Under what rules of engagement (ROE) will our forces be 
operating? Please provide legal and layman definitions and examples of 
the ROE that we are currently operating under and plan to utilize in 
future operations.
    Secretary Hagel and General Mayville. U.S. forces will be operating 
under the Standing Rules of Engagement (ROE) that apply to operations 
conducted overseas. In addition, the Executive Orders for operations in 
Iraq and Syria have provided mission specific ROE. All the ROE are 
classified.
    The mission specific ROE authorize the use of force against two 
specifically designated groups, which means that these declared hostile 
forces may be targeted based on status. Forces that have been declared 
hostile for operations in Iraq and Syria include both the Islamic State 
of Iraq and Levant (ISIL) and Khorasan Group. U.S. forces use multiple 
forms of intelligence to determine whether or not the individual or 
equipment being targeted is a member of the declared hostile forces.
    U.S. forces always retain the inherent right of self-defense. 
Additionally, I authorized the use of force to defend other military 
and civilian personnel as well as critical infrastructure. In addition 
to the individuals designated by me, the Commander, U.S. Central 
Command has authority to designate additional military forces, civilian 
personnel, and critical infrastructure for protection under collective 
self-defense. General Austin has designated all partner nation 
coalition forces as eligible for protection under collective self-
defense. U.S. forces have used this collective self-defense in 
operations that defend American citizens, internally displace people in 
vicinity of Sinjar and Kobani, and Iraqi Security Forces.
    The ROE also authorize entry in the land, internal waters, 
territorial seas, and air space of specifically designated nations. The 
entry authorization supports operations in Iraq and Syria and also 
allows for entry for the specific purpose of personnel recovery 
operations in surrounding nations, if necessary.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. Forbes magazine recently wrote an article on DOD's 
decision to reduce our intelligence, surveillance, and reconnaissance 
(ISR) capabilities by 50% given the proposed retirement of the U-2 
aircraft. The committee understands the U-2 currently provides 75 
percent of our actionable intelligence. Several combatant commanders 
are on record supporting the capabilities of the U-2 over the Global 
Hawk. Public law in the FY2007 National Defense Authorization Act 
(NDAA) and again in the FY2012 NDAA preclude the retirement of the U-2 
until ISR gaps caused by the retirement of the U-2 are mitigated. The 
law further stipulates that ``until the capability to be fielded at the 
same time or before the U-2 aircraft retirement would result in equal 
or greater capability available to the commanders of the combatant 
commands.'' Can you provide details on the transition plan that allows 
a thoughtful transition strategy from the U-2 to the Global Hawk 
without creating an ISR gaps?
    Secretary Hagel. The plan to upgrade the capabilities of the Global 
Hawk sensor and transition ISR missions from the U-2 to the Global Hawk 
is detailed in the office of Cost Assessment and Program Evaluation's 
(CAPE) classified report to Congress. This report was prepared in 
response to section 143(c) of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2014 and was briefed to members of the House 
Armed Services Committee on September 5, 2014. The Department of 
Defense Special Access Program Central Office (SAPCO) is coordinating 
with your office to arrange a discussion in which CAPE can review with 
you the classified details of the plan.
    Ms. Tsongas. Several combatant commanders have expressed their 
concerns about our ISR capabilities and capacity? What investments are 
being made to maintain the necessary multispectral capabilities in 
order to preclude a gap in ISR capacity and capability as the U-2 is 
retired?
    General Mayville. The retirement of the U-2 will create a multi-
spectral gap until the required equipment for the RQ-4 is developed. 
The Air Force is assessing options for the transition of U-2 like 
capabilities to the RQ-4. In accordance with a $10M FY14 NDAA 
Congressional Mark, the Air Force is conducting a study to assess the 
cost and feasibility to transition U-2 sensor capabilities to the RQ-4. 
The results of this study are pending and distribution to the 
Congressional committees will occur by the spring of 2015.
    The FY15 PB provides investments to transition unique U-2 sensors 
to the RQ-4, mitigating some gaps in collection capabilities with the 
U-2 retirement. USAF estimates U-2 sensor transition costs at less than 
$500M over the next 10 years. The sensor transition will be deferred if 
BCA funding levels are realized.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. FLEMING
    Dr. Fleming. President Obama has stated: ``Our objective is clear 
and that is to degrade and destroy the Islamic State of Iraq and the 
Levant (ISIL) so it is no longer a threat.'' While the President has 
repeatedly promised no combat boots on the ground, earlier this week 
General Dempsey testified in a Senate hearing that: ``To be clear, if 
we reach the point where I believe our advisers should accompany Iraqi 
troops on attacks against specific ISIL targets, I will recommend that 
to the President.''
    Could you please clarify: Will the President accept the 
recommendations of his top military leaders in order to destroy ISIL so 
that it is no longer a threat as the President has stated is his goal, 
or will this administration allow ISIS to continue its operations and 
conduct terrorist attacks in Iraq should the planned air campaign fail 
to destroy ISIL?
    Secretary Hagel. The President has been clear: he is in regular 
discussions with his national security team on countering ISIL. The 
Chairman is a member of that team and his role is to provide military 
advice to the President. As events on the ground evolve, the President 
will continue to consider advice from his entire team.
    Dr. Fleming. I am concerned about the safety of our airmen as they 
conduct the campaign this administration is proposing. The President 
has stated that there will be no combat troops on the ground, and yet 
as we know from the experience of Iraq and Afghanistan, and as has been 
explained by senior Air Force leaders, special operations forces are 
needed on the ground in Syria in order for air strikes to be 
successful. General Dempsey testified in a Senate hearing earlier this 
week that U.S. forces will be prepared to provide search and rescue 
missions if pilots are shot down and to make the mission successful.
    Could you please clarify as to how this administration plans to 
ensure the protection of U.S. airmen and the success of the airstrike 
mission that he is proposing without special operations forces serving 
in some kind of combat role?
    Secretary Hagel and General Mayville. All airstrikes are 
coordinated through the Combined Air Operations Center. Through various 
intelligence collection assets, a threat overlay is developed 
displaying the threats from surface to air missiles. These threats are 
incorporated in mission planning to mitigate to the greatest extent 
possible risks to the force; mitigations are attained primarily through 
avoidance of these areas and the use of standoff munitions to limit 
exposure to these anti-air threats. The tactics used by pilots are also 
designed to minimize their vulnerability to surface to air missiles and 
anti-air threats. For targets that are inside the threat rings of 
surface to air missiles or located in other high threat areas, detailed 
weaponeering is conducted to minimize the threat to aircraft. The use 
of standoff weapons systems such as Joint Air-to-Surface Stand-Off 
Missiles, Joint Stand-Off Weapons, sea-launched Tomahawk Cruise 
Missiles, and employment of stealth aircraft minimize the threat to 
personnel.
    Dr. Fleming. Since President Obama has taken office, our military 
has been cut by over $1 trillion and is set be cut by billions more 
before his term is complete. How does this administration intend to 
ensure that our soldiers have the training, resources, and equipment 
they need to be successful in meeting the President's stated objective 
of destroying ISIL?
    Secretary Hagel. The Military Services will always ensure the 
forces that are deploying to engage in combat operations or train and 
assist operations are trained and equipped to meet the mission tasking. 
Specifically for the current operations to defeat the Islamic State in 
Iraq and the Levant (ISIL), the Military Services, for the most part, 
have relied on forces already assigned to the U.S. Central Command 
(USCENTCOM). The Department is relying on Overseas Contingency 
Operations (OCO) funding that is available under the Continuing 
Resolution to cover the costs of current operations. The Department, in 
coordination with the Office of Management and Budget, will evaluate 
the need to request additional OCO funding in fiscal year 2015 as 
requirements are better defined.
    Dr. Fleming. As part of his plan to destroy ISIL, the President has 
requested that Congress authorize the training and equipping of what 
this administration has called the ``vetted, moderate Syrian 
opposition.'' Yet recent media reports have indicated that the founder 
of the Free Syrian Army has stated that it will not join the U.S.-led 
coalition to defeat ISIL because overthrowing Assad is its top 
priority.
    What evidence can the administration provide that the opposition 
forces that the President intends to equip and train will focus its 
efforts on ISIL, rather than on Assad's forces? How does the 
possibility of the rebel opposition focusing on Assad square with this 
administration's stated goal of destroying ISIL? What is this 
administration's plan for eliminating ISIL if rebel forces focus on 
Assad rather than ISIL and other radical jihadist groups?
    Secretary Hagel. The program to train and equip Syrian moderate 
opposition forces is a multi-purpose effort designed to build a force 
capable of defending the Syrian population against extremist groups 
such as the Islamic State of Iraq and Syria (ISIS), as well as regime 
attacks; to stabilize areas under opposition control; and prepare 
trained forces to go on the offensive against ISIS. The initial 
priority is to fight ISIS, to the extent possible we will recruit from 
communities that are directly threated by ISIS, or where forces will 
have the capacity and will to fight ISIS. More broadly, our goal is to 
ensure that the moderate opposition is in a positon to hold territory 
from which ISIS is removed and, by strengthening opposition forces, to 
advance the conditions that will lead to a negotiated end to the Syrian 
conflict.
    Dr. Fleming. A major concern Congress and the American people have 
with arming and training this ``vetted, moderate, Syrian opposition'' 
is its relationship to other groups on the ground. Could you please 
describe the nature and level of political, diplomatic, economic, and 
military cooperation, integration or affiliation between the identified 
rebel forces and the following groups: ISIL, Al-Nusra, the Muslim 
Brotherhood, the Khorasan Group, and other Al Qaeda affiliates and 
radical jihadist groups.
    Secretary Hagel. [No answer was available at the time of printing.]
    Dr. Fleming. The constitutions and politicians we supported in Iraq 
and Afghanistan were not supportive of religious freedom. Are we going 
to change course on this matter? For example, are we going to include 
Christian militia groups and leaders, and perhaps other groups, or only 
Islamic militias? For example, one of the most prominent Christian 
militia groups is the Syriac Military Council. They control an area of 
free Syria. Will they be included in any approved weapons support and 
training support from us?
    Secretary Hagel. We have not yet identified the specific armed 
groups we will work with for the train-and-equip program. However, 
should Christian groups demonstrate interest in working with us, and be 
deemed appropriate recipients of U.S. support after being properly 
vetted, we could consider including them in the program.
    Dr. Fleming. Please give a detailed account of the coalition 
against ISIL that the administration has formed thus far, including the 
type and level of support from each country part of the coalition.
    Secretary Hagel. [No answer was available at the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CARSON
    Mr. Carson. We know that major terrorist groups like ISIL and Al 
Qaeda actively pursue an international profile--both to boost 
recruiting and to spread their extremist ideology. But I'm interested 
in understanding whether the split between ISIL and Al Qaeda has driven 
them into direct competition. Do you believe that the level of 
attention given to ISIL is encouraging Al Qaeda and others to branch 
out, as Al Qaeda recently did on the Indian subcontinent, or to act 
more violently to keep up? Are there any notable changes in Al Qaeda 
and other terrorist group activities that correspond with the rise of 
ISIL?
    Secretary Hagel. [No answer was available at the time of printing.]
    Mr. Carson. President Obama made clear that ISIL is not a state. 
But are they taking any steps in pursuit of their statehood 
aspirations, like attempting to set up a government structure or 
provide public services? And if so, are we taking any steps to 
distinguish between ISIL fighters and those conscripted into these 
types of service positions in cities taken over by ISIL?
    Secretary Hagel. ISIL aspires to establish local governments and 
provide basic services to the populace in each city or district of Iraq 
and Syria it controls. ISIL seeks to form its governance based on 
strict Sharia law. ISIL's leadership structure in areas they control 
remains in-line with the group's overall structure; however, the group 
has given some responsibility to local citizens loyal to ISIL and 
empowered supportive tribal leaders to address grievances. Local 
government offices and medical services are operated and managed ISIL 
members and loyalists.
    At this time we are unable to accurately distinguish between ISIL 
cadre and local citizens working under ISIL control. This is largely 
due to the lack of detailed information on the people in ISIL 
controlled cities.
    Mr. Carson. What is the status of foreign military sales to Iraq? 
Are they on hold, proceeding normally, or being expedited to shore up 
the ISF? And after watching some of our equipment fall into ISIL's 
hands, what steps can be taken to ensure that any future equipment 
provided is not lost in the same way?
    Secretary Hagel. Since January, Iraq has requested additional 
equipment and services to aid in its campaign against ISIL. The USG has 
expedited delivery of more than 1,100 Hellfire missiles, 20,000 2.75-
inch rockets, thousands of rounds of tank ammunition, thousands of 
machine guns, grenades, flares, small arms, and other equipment. 
Foreign Military Sales (FMS) cases are currently in development to 
provide additional Hellfire missiles, rockets, and other munitions as 
an immediate and effective tool against the threat. The formation of 
the new Iraq government, the strengthening and regeneration/
reorganization of the ISF, and the increased U.S. advisory role will 
help ensure better security and employment of these critical 
capabilities.
    Mr. Carson. I would like some clarity on the role of special 
operations forces in this conflict with ISIL. Obviously, special 
operations encompasses a wide array of missions. But does the ``no 
boots on the ground'' assertion apply to short-term special operations 
missions, like the pursuit of a high value target? If so, what types of 
special operations may occur while still sticking to the ``no boots on 
the ground'' pledge?
    Secretary Hagel and General Mayville. Special Operations play a 
central role in the conflict against ISIL. Counterterrorism, foreign 
internal defense, security forces assistance, counterinsurgency, and 
hostage rescue remain core activities for our Special Operations 
Forces. Nonetheless, the ``no boots on the ground'' policy applies to 
all operations, including Special Operations in Syria. However, our 
forces are capable of creating effects in Syria while not physically 
located there. U.S. Special Operations Forces conduct the core 
activities using specialized tactics, techniques, and procedures, and 
in unique conditions and to different standards, but in a manner that 
complements conventional capabilities. Special Operations Forces can 
tailor their capabilities in combinations with foreign forces that 
provide options for creating effects to achieve a broad range of 
strategic objectives. If the situation necessitates, the President and 
Secretary of Defense retain the authority to make an exception to this 
policy.

                                  <all>
</pre></body></html>
